    August 26, 2005




Information Technology
Management

Report in Defense Business
Management System Controls Placed in
Operation and Tests of Operating
Effectiveness for the Period
October 1, 2004 through May 15, 2005
(D-2005-104)




             Department of Defense
            Office of Inspector General
 Quality              Integrity       Accountability
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                           August 26,2005

MEMORANDUM FOR THE OFFICE OF THE UNDER SECRETARY OF DEFENSE
                            (C0MPTROLLER)JCHEF FINANCIAL OFFICER
                          DIRECTOR, DEFENSE FINANCE AND ACCOZTNTMG
                            SERVICE
                          DIRECTOR, DEFENSE INFORMATION SYSTEMS
                            AGENCY


SUBJECT: Report an Defense Business Management System Controls Placed in
         Operation and Tests of Operating Effectiveness for the Period October 1,
         2004 through May 15,2005 (Report No. D-2005- 104)


       We are providing this report for your information and use. No written response to
this report is required. Therefore, we are publishing this report in final fom.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Michael Perkins at (703) 325-3557 (DSN 22 1-3557) or Donna Roberts at (703)
428-1070 (DSN 328-1070).

                                By direction of the Deputy Inspector Generat for Auditing:

                                 f                   aM
                               f i r aul J. Granetto, CPA
                                                                    d
                                Assistant Inspector General
                                Defense Financial Auditing
                                          Service
Table of Contents
   Foreword

   Section I
       Independent Service Auditor’s Report ..............................................................1

   Section II
       Description of the Defense Business Management System Operations and
        Controls Provided by the Defense Finance and Accounting Service ............7

   Section III
       Control Objectives, Control Activities, and Service Auditor’s Tests of
        Operating Effectiveness ...............................................................................19

   Section IV
         Supplemental Information Provided by the Defense Finance and Accounting
          Service and the Defense Information System Agency ................................81

   Acronyms and Abbreviations ....................................................................85

   Report Distribution .......................................................................................87
Foreword
This report is intended for the use of the Defense Finance Accounting Service (DFAS)
and Defense Information System Agency (DISA) management, its user organizations,
and the independent auditors of its user organizations. Department of Defense personnel
who manage and use the Defense Business Management System (DBMS) will also find
this report of interest as it contains information about DBMS application controls.

The Department of Defense Office of the Inspector General (DoD OIG) is implementing
a long-range strategy to conduct audits of DoD financial statements. The Chief
Financial Officer’s Act of 1990 (P.L. 101-576), as amended, mandates that agencies
prepare and conduct audits of financial statements. The reliability of information in
DBMS directly affect DoD’s ability to produce reliable, and ultimately auditable,
financial statements, which is key to achieving the goals of the Chief Financial Officer’s
Act.

DBMS is a legacy general ledger financial management system implemented at DFAS-
Columbus, Ohio in 1969. DBMS has been modified significantly since 1969 with the
addition of modules and subsystems to support: cost accounting, military personnel
costing, funds appropriation, and reimbursable receivables. It provides support to
various DoD agencies. Due to a recent migration, DBMS mid-tier servers and
mainframe have been moved to DISA Systems Management Center-Ogden, Utah as of
February 2005.

This audit assessed controls over the DBMS processing of transactions at DFAS and
DISA. This report provides an opinion on the fairness of presentation, the adequacy of
design, and the operating effectiveness of key controls that are relevant to audits of user
organization financial statements. As a result, this audit precludes the need for multiple
audits of DBMS controls previously performed by user organizations to plan or conduct
financial statement and performance audits. This audit will also provide, in a separate
audit report, recommendations to management for correction of identified control
deficiencies. Effective internal control is critical to achieving reliable information for
all management reporting and decision making purposes.
Section I: Independent Service Auditor’s Report




                       1
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704


                                                                          August 26,2005

MEMORANDUM FOR THE OFFICE OF THE UNDER SECRETARY OF DEFENSE
                 QCOMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE NORMATION SYSTEMS
                 AGENCY

SUBJECT: Report on Defense Business Management System Controls Placed in
         Operation and Tests of Operating EfFectiveness for the Period October 1 ,
         2004 through May 15,2005

We have examined the accompanying description of the general computer and application
controls related to the Defense Business Management System (DBMS)(Section .)JI The
DBMS, including generat computer and application controls, is directly supported and
maintained by DFAS and DISA. Our examination included procedures to obtain
reasonable assurance about whether (1) the accompanying description presents fairly, in
all material respects, the aspects of the controls at DFAS and DISA that may be relevant
to a DBMS user organization's internal controls as it relates to an audit af financial
statements; (2) the controls included in the description were suitably designed to achieve
the control objectives specified in the description, if those controls were complied with
satisfactorily, and user organizations applied the controls contemplated in the design of
controls at DFAS and DISA; and (3) such controls had been placed in operation as of
May 15,2005.

The control objectives were specified by the DoD OTG and accepted by DFAS and DISA.
Our examination was performed in accordance with standards established by the
American Institute of Certified Public Accountants and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
enera1 of the United States, and included those procedures we considered necessary in
the circumstances to obtain a reasonable basis for rendering our opinion.

In our opinion, the accompanying description of the general computer and application
controls at DFAS and DISA related to DBMS (Section II) presents fairly, in all material
respects, the relevant aspects of the controls at DFAS and DTSA that had been placed in
operation as of May 15,2005, including the completed migration of the DBMS
application from DECC-Columbus to SMC-Ogden Febmary 2005. Also, in our opinion,
the controls, as described, were suitably designed to provide reasonable assurance that the
specified control objectives would be achieved if the described controls were complied
with satisfactorily and users applied those aspects of internal control contemplated in the
design of the controlls at DFAS and DISA.
In addition to the procedures we considered necessary to render our opinion as expressed
in the previous paragraph, we applied tests to specific controls, listed in Section III, to
obtain evidence about their effectiveness in meeting the related control objectives
described in Section III during the period October 1, 2004 to May 15, 2005. The specific
control objectives, controls, and the nature, timing, extent, and results of the tests are
listed in Section III. This information has been provided to DBMS user organizations
and their auditors for consideration when making assessments of control.

A number of controls in place to ensure compliance with DoD information assurance
policies, including DoDI 8500.2 and Defense Information Technology Security
Certification and Accreditation Process (DITSCAP) appear to be suitably designed, but
our tests of operating effectiveness indicated inconsistencies in adherence to these
policies. As discussed in Section III, Control Objectives, Control Activities, and Service
Auditor’s Tests of Operating Effectiveness, we identified deficiencies relating to the
operating effectiveness of controls in operation for the period October 1, 2004 to May 15,
2005.

In performing our examination, we found DFAS did not have policies and procedures in
place for performing periodic recertification of user access to DBMS. Also, maintenance
of access request forms and worksheet documents was inconsistent, resulting in separated
employees maintaining access to the application. We also found that DFAS did not have
policies and procedures that detailed the retention and review of DBMS access and audit
logs.

Tests of operating effectiveness for general controls identified primary deficiencies in
access and system software controls. Specifically:

   •   DECC-Columbus did not have policies and procedures requiring privileged users
       to only use privileged access to perform their functions. For example, Systems
       Administrators were not required to have a separate or additional logon to
       perform their non-privileged functions. Other than the supervisor, there was no
       one at DECC-Columbus responsible for tracking privileged role assignments.
       When an employee changed jobs within DECC-Columbus, there was no check to
       ensure the access level was adjusted to reflect current requirements.
   •   DECC-Columbus did not adhere to the DoD Security Technical Implementation
       Guide (STIG) for Resource Access Control Facility (RACF). Specifically, testing
       revealed there was no written standard identifying needed access. This prevented
       system administrators from restricting access based on position description, least
       privilege, and separation of duties.
   •   SMC-Ogden did not adhere to the Oracle STIG. Specifically, user privileges
       were not periodically reviewed, non-administrator accounts were granted
       excessive privileges, and password parameters did not comply with DoD
       requirements.




                                             4
Tests of operating effectiveness for application controls identified primary deficiencies in
authorization, completeness, and change controls. Specifically:

   •   DFAS did not have authorization controls in place to verify that supervisors
       properly assigned function codes to promote separation of duties. In addition,
       password configurations restricting access to DBMS did not comply with DoD
       length, complexity, re-use, and encryption requirements. The minimum and
       maximum password change period was not specified.
   •   Applications interfacing with DBMS sent data in clear text via File Transfer
       Protocol (FTP) that was not secured by encryption. In addition, the interface
       control for SRD-1 required a header and trailer for DBMS to accept the
       transaction file. However, on three separate tests, the transaction file was
       accepted each time without the trailer.
   •   The documented change control process for DBMS did not reflect existing change
       control processes being followed. DFAS did not have documentation supporting
       changes (normal and emergency), changes did not have appropriate signatures,
       and test plans and results were not in the change package.
   •   DFAS did not have Information Assurance (IA) roles specified in writing.

As a result of these deficiencies, the controls for DBMS did not provide reasonable
assurance that the following control objectives were fully achieved during the period of
October 1, 2004 to May 15, 2005:

   •   “Resource owners have identified authorized users and their access authorized,”
       (Control Activity AC-2.1)
   •   “Adequate logical access controls have been implemented. Logical controls over
       data files and software programs,” (Control Activity AC-3.1a)
   •   “Adequate logical access controls have been implemented. Logical controls over
       a database,” (Control Activity AC-3.2c)
   •   “Access authorizations are appropriately limited,” (Control Activity SS-1.1)
   •   Policies and techniques have been implemented for using and monitoring use of
       system utilities,” (Control Activity SS-2.1)
   •   “Inappropriate or unusual activity is investigated and appropriate actions taken,”
       (Control Activity SS-2.2)
   •   “Authorizations for software modifications are documented and maintained,”
       (Control Activity CC-1.2)
   •   “Emergency changes are promptly tested and approved,” (Control Activity CC-
       2.2)
   •   “Data entry terminals are secured and restricted to authorized users,” (Control
       Activity AN-2.1)
   •   “Users are limited in what transactions they can enter,” (Control Activity AN-2.2)




                                             5
        "Reconciliations show the completeness of data processed at points in the
        processing cycle," (Control Activity CP-2.1)
        "Reconciliations show the completeness of data processed for the total cycle,"
        (Control Activity CP-2.2) and
        "Rejected transactions are controlled with an automated emr suspense file."
        (Control Activity AY -3.1 $
In our opinion, except for the matters listed in the preceding paragraphs, the controls that
were tested, as described in Section III, were operating with suficient effectiveness to
provide reasonable, but not absolute, assurance that the control objectives sgeci fied in
Section JI
         lwere achieved during the period from October 1,2004 to May 15,2005.
However, the scope of our engagement did not include tests to determine whether control
objectives not listed in Section IEE were achieved; accordingly, we express no opinion on
the achievement of control objectives not listed in Section m[.

The relative effectiveness and significance of specific controls at DFAS and DISA and
their effect on assessments of control risk at user organizations are dependent on their
interaction with the controls and other factors present at individual user organizations.
We performed no procedures to evaluate 'the effectiveness of internaI controls at
individual user organizations.

The description of controls at DFAS and DISA is as of May 15,2005, and the
information about tests of the operating effectiveness of specific contr~lscovers the
period from October I , 2004 to May 15, 2005. Any projection of such information to the
future is subject to the risk that, because of change, the description may no longer portray
the controls in existence. The potential effectiveness of specific controls at DFAS and
DISA is subject to inherent limitations and, accordingly, ersors or fraud may occur and
not be detected. Furthermore, the projection of any conclusions, based on our findings, to
future periods is subject to the risk that (1 1changes made to the system or controls, ( 2 )
changes in processing requirements, or (3) changes required because of the passage of
time may alter the validity of such conclusions.

This report is intended solely for use by management o f DFAS and DISA, the DBMS
user organizations, and the independent auditors of such user organizations.



                                By direction of the Deputy Inspector General for Auditing:



                                Assistant hspector General
                                Defense Financial Auditing
                                            Service
Section II: Description of Defense Business Management System
 Operations and Controls Provided by the Defense Finance and
                       Accounting Service




                              7
II. Description of Defense Business Management System
    Operations and Controls Provided by the Defense Finance
    and Accounting Service

A. Overview of DBMS
System Overview

DBMS was developed in incremental parts beginning with the Payroll Subsystem in
1969 and Personnel Subsystem in 1972. The Resource Administration Subsystem
(RAS) was added in 1975 to support business areas such as Cost Accounting,
Managerial Reporting, Military Personnel Costing, and Performance Productivity. The
Appropriation Accounting Subsystem (AAS) was added in 1986 to provide a uniform,
automated system of accounting for appropriated funds with major components of this
subsystem being funds control, appropriation record maintenance, job order accounting,
and financial reporting. Finally, the Automated Billing System (ABS) was added in
1998 to provide a centralized point of input for data needed to record and manage work
requests received from customers via the reimbursable order process. After DoD
selected DCPS for Payroll and Defense Civilian Personnel Data System for Personnel,
the DBMS Payroll and Personnel Subsystems were eliminated. Both were
decommissioned before 2000.

System Capabilities

DBMS is currently a logical partition (LPAR) on a Z890-A-04 mainframe at SMC-
Ogden. It is subdivided into 17 production copies of the DBMS SUPRA database with
one test database. The 17 copies support approximately 4,720 customers in the Defense
Agencies Accounting Business Line spread across 60 sites. Each production database is
managed separately; however, some customers manage multiple databases. The
breakdown is presented below:


                                                               Number of
                                Customer
                                                               Databases
                  Defense Commissary Agency                          3
                  Defense Contract Audit Agency                      1
                  Defense Contract Management Agency                 1
                  Defense Finance and Accounting Service             2
                  (Residual Data)
                  Defense Logistics Agency                           8
                  Navy                                               2




                                           9
As established by the Service Level Agreement (SLA) between DISA and DFAS, each
database copy is permitted to remain online for processing only during a prescribed
window. At all other times, the databases are taken offline for batch processing and
maintenance purposes, prohibiting user access.

Each subsystem includes the following functions:

      RAS

          o Labor Processing – Obtains payroll and personnel data from interfacing
            systems that provide estimated hours and dollars for civilian employees.

          o Organizational Management – Establishes controls that impose
            hierarchical relationships between the Agency, Activity, and Office
            structures and between the Agency Basic Cost Accounts, Tasks, and
            Work Units.

          o Operational Cost – Labor dollar and hour adjustments received from
            interfacing systems update labor dollar and hour figures in RAS.

          o Military Personnel/Manpower – Maintains current military personnel
            records and tracks related costs.

          o Performance – Measures work performance and work effectiveness,
            reporting on how efficiently labor is being used.

          o Online Processing – Access to RAS is through the online, real-time
            SUPRA database environment.

      AAS

          o Funds Control – Establishes quarterly operating target records as the
            primary method of controlling available funds.

          o General Ledger Maintenance – Records the receipt of funds,
            commitments, obligations, expenses, disbursements, and customer orders
            accepted; and updates the applicable general ledger records online.

          o Appropriation Record Maintenance – Maintains historical records for all
            transactions that affect the status and utilization of funds.

          o Job Order Accounting – Allows for the establishment of job orders to
            accumulate costs pertinent to the accomplishment of specific work
            assignments.




                                          10
           Financial Reporting – Prepares various financial reports and listings to
           provide data for use by local management and for submission to DFAS-
           Headquarters, including data utilized for analysis and reconciliation of
           accounts.

      ABS

           o Reimbursable Receivables – Central point of input and automatic
             interface of work counts produced in support of Reimbursable
             Receivables.

           o Funds Control – Controls all work orders, service orders, and work
             requests received from federal agencies.

           o Excess Earnings – Accounts for the automatic release of suspended
             excess earnings as additional funds provided by the customer.

System Architecture

DBMS has a two-tiered architecture comprised of:

   •   Mid-tier and mainframe (hardware and software) components, and

   •   Remote user/print spooler hardware and software (online viewing, printing, and
       downloading).

The mid-tier and mainframe components are used as a repository for the collection and
accumulation of accounting, billing, labor, and non-labor data. Their primary function is
to provide centralized, daily processing of general ledger and cost reports.

The remote user/print spooler hardware and software are used primarily for online report
viewing, printing of mainframe-generated outputs, and downloading financial
information. These components are largely customer-owned and operated. They
include personal computers, local area networks, a diverse assortment of printers, and
the software that operates and connects them. Customers have access to “Report.Web”
software, which is utilized for viewing, printing, and downloading reports which are
produced during nightly batch cycles.

DBMS recently completed a migration where the mid-tier and mainframe servers were
moved from DECC-Columbus to SMC-Ogden, as part of the larger DISA transformation
strategy currently underway. The DBMS mid-tier server was moved to SMC-Ogden in
May 2004, and the mainframe server was moved in February 2005.

ABS is hosted on the mid-tier utilizing an Oracle database. One of its primary functions
provides an automatic interface and central point of input for all transactions relating to
reimbursable receivable documents. All of the policies guiding the configuration of the
database, user account settings, and permissions are controlled by Terminal Area



                                             11
Security Officers (TASOs). Most of the settings were in place before the box was
moved from DECC-Columbus. The Oracle implementation is installed on a mid-tier
machine and runs on the UNIX operating system.

The technical components of the DBMS mainframe architecture include the following
attributes:

   •   The hardware supporting the application is housed on the Z890-A-04 mainframe
       LPAR located at SMC-Ogden;

   •   The operating system software is z/OS, Release 1.4;

   •   DBMS is written in COBOL XT, COBOL, and MANTIS 4GL languages;

   •   The mainframe is initially protected by IBM’s Resource Access Control Facility
       (RACF); and

   •   Third-party software packages are used for process scheduling and monitoring
       services.

Both SUPRA LPARs (development and test, and production) transitioned to SMC-
Ogden. SUPRA security is implemented through two external security packages:
CINCOM ENTIRE controls security at the application level; and RACF controls
security at the operating system and dataset levels. The current mainframe operating
system for the SUPRA Physical Data Manager database is z/OS, Release 1.4. There are
17 databases, which are configured with the same security settings, passwords and
logons.

The two tiers of DBMS architecture are connected via DoD-maintained networks,
comprised of Internet Protocol-based (e.g., Non-Classified Internet Protocol Router
Network) and Systems Network Architecture-based (leased line) services. These
networks connect DBMS to a number of customer sites (mainframes, mid-tiers, and
personal computers) that supply or regularly exchange data with DBMS, mainly through
electronic file transfers. Examples of some external interface sites include DCPS, SRD-
1, and BOSS.

System Interfaces

DBMS customers maintain their own financial management systems that indirectly
interface to DBMS in batch cycles via unencrypted FTP. Incoming files from
interfacing systems are first processed on a mid-tier platform. The mid-tier utilizes hard-
coded logic in the Liaison Activity Code Table (LACT) to route the incoming
information to the appropriate DBMS SUPRA database copy. The information is routed
if it contains a header and trailer attached by the sending system, signifying the
beginning and end of the interfacing file. After the information is routed, it is processed
by DBMS and posted to the General Ledger. If information cannot be routed to a

                                            12
specific database copy,


DBMS sends the specific transaction and logs it to a report on the designated default
database for further research by the Accounting Operations Personnel. DFAS-Columbus
Accounting Technicians manually corrects the transaction.

Reconciliations are performed by DFAS-Columbus; however, full reliance is placed on
the interfacing systems and customers to have rigorous controls in place that catch
erroneous information, and missing or duplicate transactions in the batch before
transmitting to DBMS.

The most important interfaces include DCPS payroll data, SRD-1 Fund Balance with
Treasury information, and BOSS retail stock fund/supply transactions.

The only direct interface to DBMS, bypassing the mid-tier, is a recently-added interface
for Defense Commissary Agency – Europe that sends foreign national pay data.

Sensitivity of Data Processed and System Criticality

DBMS contains Sensitive but Unclassified financial information at the Mission
Assurance Category (MAC) III level. Actual data elements contain technical, personnel,
and financial data that require protection from unauthorized disclosure. The DBMS
unclassified environment includes sensitive financial and controlled information that is
exempt from mandatory release to the public under the Freedom of Information Act.
The DBMS environment includes files, when aggregated/integrated, increases the
sensitivity level. To ensure adequate protection of data during FTP processes, DBMS
incorporates a Virtual Private Network, when required.

The compromise or unauthorized disclosure of DBMS information would have an
adverse impact and actively counter DFAS’ mission, functions, image, or reputation.
The impact would place DFAS at a significant disadvantage, resulting in intense public
scrutiny, loss of public trust, and the possible loss of significant tangible assets or
resources. Potential overstatement or understatement of assets, liabilities or net position
and significant effects on the completeness and existence of transaction information are
possible. DBMS has a recovery window of 72 hours.

Compromise or unauthorized disclosure of DBMS information is prevented through
various logical access controls. Specifically, workstations are properly secured to
prevent unauthorized access to the application. Users are authenticated with a unique
user identification (ID) and password. The application is only available during specified
online processing windows corresponding with normal business hours and disconnects
after a period of non-usage. Users have three successive failed logon attempts before the
account becomes locked and must be unlocked only by a TASO. Finally, access logs are
produced that track users logging in and out of the application. A List of Security
Violations report tracks failed logins by user and details the reason, usually invalid user
passwords or locked accounts.


                                             13
B. Control Environment
The DFAS-Headquarters, located in Arlington, Virginia, provides management control and
coordination within the DoD and has overall responsibility for interpretation and
application of DBMS through DFAS-Columbus Accounting Systems Program
Management Office.

Administration

Administration of DBMS includes manual operations and standard operating procedures
designed to counter fraud, waste, and abuse, including separation of duties, which ensures
that work responsibilities are separated so that one individual does not control all critical
stages of a process. Physical access to the system will be granted through a rigorous, well-
established process conducted in accordance with DoD Directive 5200.2-R, “Personnel
Security Program”, and Code of Federal Regulations (Chapters 731, 732, and 736).

Personnel

Personnel are assigned security duties to enforce DFAS policies for the operation and
protection of DFAS automated information systems. These individuals are knowledgeable
in the nature of the information and processes supported by the application and in the
management, personnel, operational, and technical controls used to protect the information.
The responsibility for implementation, acceptance, and maintenance of adequate automated
accounting systems security is assigned to the following individuals:

   •   The Program Manager is responsible for the overall development, delivery, and life
       cycle maintenance of DBMS and for ensuring that all users have been properly
       trained and are familiar with security policies and procedures before being granted
       access.

   •   The Designated Approving Authority is responsible for evaluating the level of risk
       associated with operating DBMS and granting either an Interim Authority to
       Operate or an Authority to Operate, if the risk is found to be acceptable.

   •   The Information System Security Manager is responsible for enforcing all
       applicable security policies and safeguards for all personnel with access to DBMS.
       In addition, the Information System Security Manager evaluates known or
       suspected vulnerabilities to ascertain if additional safeguards are needed.

   •   The Certification Authority is responsible for developing and maintaining the
       accreditation support documentation.

   •   The Information System Security Officer (ISSO) is responsible for day-to-day
       security administration and security management of DBMS.



                                              14
   •   The TASO is responsible for performing assigned security tasks as designated by the
       ISSO, including resetting passwords, suspending or unsuspending accounts, and
       acting as a general liaison from the user to the ISSO for access-related issues.

C. Monitoring
Management and supervisory personnel at DFAS and DISA monitor the performance
quality and internal control environment as a normal part of their activities. DFAS and
DISA have implemented a number of management controls that help monitor access to
the DBMS application as well as the mainframe. The System Support Office at DFAS-
Columbus coordinates access requests and forwards them to SMC-Ogden Security Office
to be established in DBMS. Additionally, several application products are in place to
monitor systems access to the mainframe LPAR and to the DBMS online portion of the
application.

There are performance products on the DISA mainframe to monitor the performance of
the hardware and software to ensure the system is performing at maximum efficiency.
DFAS and DISA are establishing additional techniques to monitor users’ online access to
DBMS, including a reading group on the online reporting system which allows Systems
area personnel to review, correct, or update online system access.

Violation Listings

DBMS generates violation listings which provide a means of monitoring and correcting
the transactions that did not successfully process or interface into DBMS. Transactions
attempting to interface into DBMS must meet the established edit, validations, and
compatibility criteria before DBMS records and accounts are updated. Transactions that
fail to meet these criteria are rejected and appear on violation listings. These violations
or rejects all have messages identifying the reason for the rejection.

DBMS also generates violation follow-up listings that contain transactions that have not
been cleared by the Accounting Department or the DBMS customer. These violation
follow-up listings are generated on a daily basis and transactions remain on the listings
with the original error message until corrective action is taken.

DITSCAP Certification and Accreditation

DoD Directive 5200.40, DITSCAP, issued December 30, 1997, and DoD 8510.1-M,
“DITSCAP Application Manual,” issued July 31, 2000, established the DITSCAP as the
standard DoD certification and accreditation process. Certification is the comprehensive
evaluation of the technical and non-technical security features of an information system
and other safeguards made in support of the accreditation process to establish the extent
to which a particular design and implementation adheres to specified security
requirements. Accreditation is the formal declaration by a Designated Approving
Authority that an information system is approved to operate in a particular security mode
using a prescribed set of safeguards at an acceptable level of risk. DITSCAP establishes


                                             15
a standard process, set of activities, general tasks, and a management structure to certify
and accredit an information system that will maintain the information assurance and
security posture of the Defense Information Infrastructure. This process supports an
infrastructure-centric approach with a focus on the mission, environment, and
architecture.

DBMS must comply with all of the DITSCAP certification and accreditation
requirements throughout its life cycle and document the requirements in the SSAA. The
SSAA is a formal agreement with the Designated Approving Authority, the Certifier,
user representative, and program manager employed to guide actions, document
decisions, specify information assurance requirements, document certification tailoring
and level-of-effort, identify potential solutions, and maintain operational systems
security. SSAAs were prepared for the DBMS application and the supporting operating
environment.

Department of Defense, Office of Inspector General

The DoD OIG was established by Congress to conduct and supervise audits and
investigations related to DoD programs and operations. The DoD OIG reports directly to
the Secretary of Defense and is independent of DFAS and DISA. DBMS, as well as the
business processes it supports, is part of the DoD OIG audit universe and is subject to
financial, operational, and information technology (IT) audits, reviews, and special
assessment projects.

Office of the Inspector General, Defense Information Systems Agency

DISA has its own Office of the Inspector General, which is an independent office within
DISA that conducts internal audits, inspections, and investigations. The DISA-related
components that support DBMS are part of the DISA Office of the Inspector General
audit universe and are subject to audits, inspections, and investigations conducted by the
DISA OIG.
D. Information and Communication
Information Systems

DBMS is the mixed-function legacy information system serving as the core financial
system for several Defense Agencies and the general ledger accounting system of record
for those agencies. DBMS indirectly interfaces with a host of financial feeder
applications that reside at various DFAS centers, DFAS operating locations, or DISA
DECCs through a mid-tier server via unencrypted FTP.

Communication




                                             16
The support relationship between DFAS and DISA is documented through a SLA, which
outlines various DFAS and DISA points of contact and liaisons that should be utilized
when issues with DBMS arise.

Within DFAS, the Software Configuration Control Board is responsible for approving
and controlling requested functional and systemic changes to DBMS. Through scheduled
meetings conducted by the Technical Program Manager, a review of the status of current
releases, new change requests, and targeted future release dates is discussed.

E. Control Activities
The DBMS control objectives and related control activities provided by DFAS
management are included in Section III of this report, “Control Objectives, Control
Activities, and Tests of Operating Effectiveness,” to eliminate the redundancy that would
result from listing them in this section and repeating them in Section III. Although the
control objectives and related controls are included in Section III, they are, nevertheless,
an integral part of the DFAS description of controls.

F. User Organization Control Considerations
The control activities at DFAS related to DBMS were designed with the assumption that
certain controls would be placed in operation at user organizations. The application of
such controls by user organizations is necessary to achieve certain control objectives
identified in this report. This section describes some of the controls that should be in
operation at user organizations to complement the controls at DFAS and DISA. The
following user organization control considerations are not a comprehensive list of all
controls that user organizations should employ. Other controls may be required at
customer organizations.

User organizations should have policies and procedures in place to provide reasonable
assurance that:

   •   Hard copy documents (e.g., purchase orders, training orders, and miscellaneous
       obligation documents) are authorized, accurate, and complete before the user
       enters them into DBMS for input and automated processing.

   •   Authorized individuals input data into DBMS, enter it accurately and completely,
       and seek approval from appropriate personnel.

   •   Erroneous data are corrected and resubmitted in a timely manner.

   •   The appropriate users review output for completeness and accuracy.

   •   DBMS computer terminals, communication lines, and data outputs are protected
       from unauthorized access.




                                             17
•   Passwords needed to access DBMS through computer terminals are protected
    against unauthorized disclosure and misuse.

•   DBMS’ TASOs are notified in a timely manner when employees leave or transfer,
    which supports the TASOs ability to cancel system access authority for those
    individuals.




                                      18
Section III: Control Objectives, Control Activities, and Tests of
                    Operating Effectiveness




                               19
III. Control Objectives, Control Activities, and Tests of
     Operating Effectiveness
A. Scope Limitations
DFAS and DISA specified the control objectives documented in this section. As
described in the prior section (Section II), DBMS interfaces with many systems. The
controls and tests described in this section of the report are limited to those computer
systems, operations, and processes directly related to DBMS. Controls related to the
source and destination systems associated with the DBMS interfaces are specifically
excluded from this review. We did not perform procedures to evaluate the effectiveness
of the input, processing, and output controls in these interfacing systems, although we did
perform procedures to evaluate DBMS’ interface input and output controls.




                                            21
Control Objectives, Control Activities, and Service Auditor’s Tests of Operating Effectiveness
Access Control (AC)

Controls provide reasonable assurance that computer resources (data files, application program, system software and computer related
facilities, and equipment) are protected against unauthorized modification, disclosure, loss, or impairment.

Control Activity:
AC-1.1 Resource classifications and related criteria have been established.
AC-1.2 Owners have classified resources.

Control Description                             Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
DISA                                            DISA                                         DISA
Security Technical Implementation Guide         Inquired security personnel about the        No relevant exceptions were noted.
(STIG) Implementation is at MAC III Sensitive   criteria used to classify resources.
Level.
                                                Inspected the DISA Computing Services
The DISA networks are being protected to        Security Handbook, DoDI 8500.2, site
MAC III level, while the enclaves are being     security plan, and SLA for DISA and
protected to the highest MAC level operating    DFAS to determine that appropriate
within the enclave or sub-enclave. The Non-     resource classifications were established.
secure Internet Protocol Router Networks are
being protected at Sensitive Confidentiality
Level.

Customers identify the MAC and
Confidentiality level for their applications.



                                                                 22
Control Activity
AC-2.1: Resource owners have identified authorized users and their access authorized.

Control Description                             Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                            DISA                                        DISA
The DISA Computing Services Security            Inspected the DISA Computing Services       A list of individuals who can approve access
Handbook details granting access to system      Security Handbook for the process used      was not maintained for SMC-Ogden.
resources.                                      to grant access.
                                                                                            DECC-Columbus:
DECC-Columbus users who have access to the      Inspected the user list and employee list
mainframe and mid-tier servers where the        to confirm that all users were on the       •   Did not track privileged role
application resides have completed DD Form      employee list.                                  assignments.
2875.                                                                                       •   Allowed inactive accounts to remain
                                                Inspected DD Form 2875 for users with           enabled for 180 days before they are
                                                access to the mainframe.                        reviewed.
                                                                                            •   Did not disable access for 13 of 45
                                                                                                separated users.

Control Activity:
AC-3.1a: Adequate physical security controls have been implemented. Physical safeguards have been established that are
commensurate with the risks of physical damage or access.

Control Description                             Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                            DISA                                        DISA
DISA facilities are located on military or      Toured and inspected the physical layout    DECC-Columbus did not have access
General Services Administration installations   and environmental controls present in the   request forms for individuals to gain physical
with controlled access and controlled           DECC-Columbus and SMC-Ogden data            access to the data center.
perimeter. Where Computing Services             centers.

                                                                23
Control Description                                 Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
facilities are not located on military or General                                                DECC-Columbus had not performed a
Services Administration installations,              Inspected that sensitive areas are marked    facility penetration test of the data center.
Computing Services facilities are enclosed          as restricted.
with a fence that provides vehicle and
pedestrian access controls. Local military,         Inspected the risk assessment for both
DoD, or General Services Administration             DECC-Columbus and SMC-Ogden data
police perform routine patrol and random door       centers to determine if threats had been
checks. Each site has an agreement with local       identified.
police organization to perform security checks.
In some cases, local police organizations have      Inspected the process for gaining access
agreed to perform annual penetration testing;       to DECC-Columbus and SMC-Ogden
however, not all local police organizations are     data centers.
equipped to perform penetration tests.
                                                    Inquired if management reviewed access
The computer facility has:                          to the DECC-Columbus and SMC-Ogden
                                                    data centers on a periodic basis.
   •   True floor to ceiling walls;
   •   Solid entrance doors;                        Inquired if a facility penetration testing
   •   Doors with hinges that prevent easy          procedure was in place at DECC-
       removal;                                     Columbus and SMC-Ogden.
   •   Emergency doors free of devices on the
       outside and equipped with a panic bar
       release on the inside and a ½ inch
       deadbolt throw;
   •   Doors with Balanced Magnetic
       Switches;
   •   Entrance doors with three-position
       combination lock for classified areas;
       and
                                                                     24
Control Description                                Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
  • Intrusion Detection System for volume
      within the area for those facilities or
      areas processing classified information.

All intrusion detection system alarms remotely
to an external element that can dispatch a
response team.

Control Activity:
AC-3.1b: Adequate physical security controls have been implemented. Visitors are controlled.

Control Description                                Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                               DISA                                        DISA
All Computing Services personnel who do not        Inspected procedures for handling           Adequate training was not provided to
have the appropriate security investigation or     visitors at the DECC-Columbus and           DECC-Columbus data center personnel to
clearance will be escorted at all times while in   SMC-Ogden data centers.                     increase their awareness of visitor policies
the computing facility.                                                                        for the data center.
                                                   Inquired on procedures to control visitor
All non-Computing Services personnel will be       access to the data centers through a log
escorted at all times while in the computing       book.
facility.
                                                   Inspected policies for changing access
                                                   codes to the data centers’ cipher locks.




                                                                    25
Control Activity:
AC-3.2a: Adequate logical access controls have been implemented. Passwords, tokens, or other devices are used to identify
and authenticate users.

Control Description                              Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
DISA                                             DISA                                         DISA
Password configuration requirements:             Inspected policies and procedures for        DECC-Columbus only required three
                                                 password parameters.                         characters to be changed when updating user
   • Minimum of 8 characters,                                                                 account passwords.
   • One lower-case character,                   Inquired whether authentication required
   • One upper-case character,                   symmetric keys.
   • One number, and
   • One special character.                      Inquired if authentication was
                                                 accomplished using Public Key
Passwords changed every 90 days.                 Infrastructure Class 3 or 4 certificates.

Password can only be changed once within 24      Inquired if concurrent logins was
hours.                                           permitted.

Password cannot be reused for 10 cycles.        Inquired how DISA ensured commonly-
                                                used names or easily-guessed passwords
Password cannot reuse any character more than were not used.
once.
                                                Inquired if all contractors were identified
Password is individual authentication           by ‘CTR’ in their e-mail address.
associated with individual user identification.
                                                Inquired if vendor-supplied passwords
Passwords are encrypted in storage.             were removed from new systems during
                                                installation.

                                                                  26
Control Description                              Tests of Operating Effectiveness           Results of Tests of Operating Effectiveness
                                                 Inquired on policies and procedures for
                                                 control of smart-cards or sophisticated
                                                 access control devices.

                                                 Inspected a network diagram that
                                                 documented logical access points to the
                                                 Local Area Network

Control Activity:
AC-3.2c: Adequate logical access controls have been implemented. Logical controls over data files and software programs.

Control Description                              Tests of Operating Effectiveness           Results of Tests of Operating Effectiveness
DISA                                             DISA                                       DISA
The mainframe access control application,        Inspected the RACF ‘SETROPTS’              DECC-Columbus did not comply with STIG
RACF, protects the DBMS application and the      report.                                    for RACF. Testing of the RACF system
system software it resides on through                                                       configuration settings revealed:
identification and authentication techniques.    Inspected the production ‘SETROPTS’
                                                 report.                                    •   Erase-On-Scratch was not active for all
RACF mainframe security software enforces                                                       sensitive datasets.
discretionary access controls. Also, access to   Inspected production ‘DSMON’ reports.      •   Password options such as change interval
shared and networked file systems outside the                                                   and history were not set to standard.
mainframe environment is controlled through      Inquired if there was a policy requiring   •   No written standard existed to compare
discretionary access controls enforced through   every ‘applid’ to use RACF to validate         which users can have access to SYSTEM
network access privileges.                       user IDs and passwords.                        SPECIAL, GROUP SPECIAL and
                                                                                                SYSTEM AUDITOR.
RACF is configured in accordance with the                                                   •   No standards existed to verify programs
RACF STIG.                                                                                      in the Program Properties Table with a
                                                                                                system key or allowed to bypass RACF
                                                                                                validation were appropriate.

                                                                 27
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
                                                         • Five resource classes were not active and
                                                            one resource class was active but
                                                            contained rules that left system
                                                            unprotected.
                                                         • The RACF Started Procedures table had
                                                            duplicate, conflicting entries, and a
                                                            coding error that made the last part of the
                                                            table unusable.
                                                         • Some datasets were listed in the RACF
                                                            “Selected Datasets Report” as either “not
                                                            found or not cataloged.
                                                         • Gaps in procedures for allocation of
                                                            system datasets, populating them with
                                                            programs, protecting them with RACF,
                                                            and marking them Authorized Program
                                                            Facility (APF)-authorized made it
                                                            possible for unauthorized APF programs
                                                            to be added to the system.
                                                         • RACF rules permitted any user to read or
                                                            purge any print dataset on the print queue
                                                            waiting to be printed.
                                                         • RACF’s control of the ability to bypass
                                                            standard labels on tape datasets was not
                                                            active.
                                                         • The RACF Global Access Table
                                                            permitted every user to have complete
                                                            access to every dataset whose name
                                                            begins “SYSOUT.”
Control Activity:
                                     28
AC-3.2d: Adequate logical access controls have been implemented. Logical controls over a database.

Control Description                               Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
SUPRA                                             SUPRA                                        SUPRA
System logging should be active to facilitate     Observed that SUPRA was logging              The “INTERFLM” database had universal
producing audit reports. The CINCOM vendor        information to two data sets.                access; having read access to certain SUPRA
recommends that system logging be activated.                                                   files (INTERFLM in particular) provided a
The system logging options “ABNA” should          Inspected the SUPRA logging settings as      vehicle for updating the databases and
be used. This will record task sign-on to the     “ANNA” A- All system sign-ons were           should have been limited by user access
database, before-images and after-images of       logged, N- did not log before images, N-     requirements.
the database records.                             did not log utilities, A-did not log after
                                                  images.                                      Directory files were not protected in the
System logs should be retained to facilitate                                                   RACF program resource class.
producing audit reports.                          Inquired if SUPRA logs were maintained
                                                  and how they were used.
Directory files should be properly protected by
external security software (e.g. ACF2, RACF,      Inspected the RACF security setting for
Top Secret).                                      SUPRA.

Physical Data Manager system and task log         Inspected the Comprehensive Retrieval
files should be properly protected by external    Results for five directory files.
security software (e.g. ACF2, RACF, Top
Secret).                                          Inspected RACF for the Physical Data
                                                  Manager system and task logs.
The SUPRA database files should have
appropriate access control.                       Inspected the RACF security rules for
                                                  user access to SUPRA datasets.
The SUPRA software installation and runtime
libraries should have appropriate access          Inspected a list of SUPRA software
control.                                          libraries.

                                                                   29
Control Description                                Tests of Operating Effectiveness         Results of Tests of Operating Effectiveness

Non-database administrator (DBA) users are         Inquired about the RACF Customer
allowed into directory maintenance facilities,     Information Control System (CICS)
then directory security should be enabled to       access rules.
control the types of access these users have in
the directory.                                     Inspected RACF CICS access rules.

Passwords need to be vigorously protected in       Inspected the DBMS Audit MFCP LPAR
job control language input source and in batch     RACF domain name server Rules and
job output.                                        found that the three CICS transactions
                                                   had read access.
Sensitive administrative authorities should be
limited to users with a legitimate business need Inspected the DBMS MFCP LPAR
for these authorities (for example, DBA should RACF SUPRA Programs file for security
have the only access to DIRM, etc.).             definitions of stand alone utilities.

Powerful utilities and functions should be         Inquired who performed the security
limited to users with legitimate business need     administration for SUPRA.
for these capabilities (e.g. DBA, security
administrator).

Stand-alone utilities should be protected by the
external security software (e.g. ACF2, RACF,
Top Secret).

SUPRA security administration functions
should be performed by the appropriate
personnel.

                                                                  30
Control Description                                Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
Oracle                                             Oracle                                      Oracle
Database management systems and data               Inquired of Oracle DBA about the            Application user privilege assignment was
dictionary controls have been implemented          security settings for the Oracle database   not reviewed periodically to ensure
that:                                              that supported DBMS.                        compliance with least privilege and
                                                                                               documented policy.
                                                   Inspected the Oracle STIG and compared
•   restrict access to data files at the logical   the outputs of the Oracle STIG script to    The Oracle version 9.2.0.4.0 was not at the
    data view, field, or field-value level;        the required settings in the Oracle STIG.   current patchset level, which was version
•   control access to the data dictionary using                                                9.2.0.6.
    security profiles and passwords;
•   maintain audit trails that allow monitoring                                                The system tablespace was being used as the
    of changes to the data dictionary; and                                                     default or temporary tablespace for four non-
•   provide inquiry and update capabilities                                                    system accounts.
    from application program functions,
    interfacing database management systems                                                    Three non-DBA account(s) had been granted
    or data dictionary facilities.                                                             Oracle default roles.
Use of database management system utilities is                                                 Access to default replication accounts was
limited.                                                                                       not restricted to authorized DBAs.
Access and changes to database management                                                      The AUDIT_SYS_OPERATIONS parameter
system software are controlled.                                                                was not set to TRUE.
Access to security profiles in the data                                                        The required minimum of two Oracle control
dictionary and security tables in the database                                                 files were not configured and stored on
management system is limited.                                                                  separate physical disks.

                                                                                               Database communications was not
                                                                                               configured to use static Internet protocol port

                                                                   31
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
                                                         assignments to remote database connections.

                                                         The SQLNET.EXPIRE_TIME had not been
                                                         set to a value greater than 0 to prevent
                                                         inactive remote connections to the database.

                                                         The SQL*Plus HOST command was not
                                                         restricted to authorized users only.

                                                         PUBLIC had been granted EXECUTE
                                                         privileges to restricted.

                                                         Unauthorized profiles had the password life
                                                         time set to more than 90 days. The password
                                                         life time should be set to 90 days or less for
                                                         user accounts and 365 days for application
                                                         batch processing accounts.

                                                         Profiles were found with either
                                                         PASSWORD_REUSE_MAX not set to 10 or
                                                         more or PASSWORD_REUSE_TIME not
                                                         set to 365 or more.

                                                         The Password Verify Function was not
                                                         specified.

                                                         The default profile exceeded the allowed
                                                         resource limit for Idle Time of 15 minutes.

                                     32
Control Description   Tests of Operating Effectiveness   Results of Tests of Operating Effectiveness
                                                         The default profile did not have maximum
                                                         failed logon attempts set to 3.

                                                         The SQL92_SECURITY parameter was not
                                                         set to TRUE.

                                                         The RENAME object audit option was not
                                                         specified on default. RENAME was not
                                                         audited on application objects. The audit
                                                         trail SYS.AUD$ was not being audited for
                                                         update and delete by all users.

                                                         The ORA_ENCRYPT_LOGIN was not set
                                                         to TRUE to prevent remote login attempts
                                                         with the password sent in clear text.

                                                         All required events were not audited in
                                                         Oracle.

                                                         The RESOURCE_LIMIT initialization
                                                         parameter was not set to TRUE.




                                     33
Control Activity:
AC-4.1: Audit trails are maintained.

Control Description                               Tests of Operating Effectiveness        Results of Tests of Operating Effectiveness
DISA                                              DISA                                    DISA
Logging includes:                                 Inspected the audit trail monitoring,   System audit records were not maintained
                                                  analysis, and reporting processes.      for one year.
•   Minimum unsuccessful attempts are logged
    to access security files, and logons;         Inspected RACF logs.
•   Minimum successful and unsuccessful
    attempts to modify system controls; and       Inquired how long audit records were
•   Records identify user ID, date, and time of   maintained.
    event.

Audit records are reviewed periodically.

Suspected violations are subject to inquiry.

Substantiated violations are reported to
Information Assurance Manager, who directs
required action.

Audit records are retained for one year on an
external storage device.

Audit requirements are listed in each of the
STIGs.



                                                                   34
System Software (SS)

Controls provide reasonable assurance that changes to the existing systems software and implementation of new system software are
authorized, tested, approved, properly implemented, and documented.

Control Activity:
SS- 1.1 Access authorizations are appropriately limited.

Control Description                                Tests of Operating Effectiveness           Results of Tests of Operating Effectiveness
OS/390                                             OS/390                                     OS/390
Policies for restricting access to systems         Inspected output to determine who had      DECC-Columbus did not comply with the
software are detailed in the OS/390. These         update or greater access to parameter      STIG for OS/390. Testing of the OS/390
documents establish guidelines for restricting     libraries.                                 operating system configuration revealed:
access to sensitive system datasets. The
network device control policy is detailed in the   Inquired on the change control process        •   Three datasets containing user ID and
Network Infrastructure STIG, which outlines        for parameter libraries.                          passwords had a default access of
access restrictions to network devices, and also                                                     READ.
details the secure configuration of network        Inquired who reviewed updates made to         •   One APF-authorized library could be
devices.                                           the production system parameter library.          updated by any RACF-defined user.
                                                                                                 •   Written standards did not specify
                                                   Inspected who had update or greater               contents of system libraries.
                                                   access to procedure libraries.                    Specifically:
                                                                                                        o No indication of what user
                                                   Inquired what the change control process                 Supervisory Calls had been
                                                   was for procedure libraries.                             authorized.
                                                                                                        o No indication of what APF
                                                                                                            libraries had been authorized.
                                                                                                        o No indication of what
                                                                                                            modifications to the Program
                                                                                                            Properties Table had been
                                                                   35
Control Description                              Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
                                                                                                           authorized.
                                                                                                • Implementation of changes by
                                                                                                    DECC-Columbus with no formal and
                                                                                                    supporting documentation of
                                                                                                    approval of system software
                                                                                                    modifications/changes made by
                                                                                                    DECC-Mechanicsburg.

HP-UNIX                                                                                      HP-UNIX
Policies and procedures for restricting access   HP-UNIX                                     FTP and telnet were enabled.
to systems software exist and are up-to-date.    Inspected the procedures in the Security
                                                 Features User’s Guide for the HP-UNIX       Secure Shell was not at the current version.
                                                 platform.
Access to system software is restricted to a
                                                                                             System settings did not in comply with the
limited number of personnel, corresponding to
                                                 Inspected the script results to determine   UNIX STIG.
job responsibilities. Application programmers
                                                 compliance with the UNIX STIG.
and computer operators are specifically
prohibited from accessing system software.

The HP-UNIX operating system is configured
in accordance with the UNIX STIG.




                                                                  36
Control Activity:
SS-2.1 Policies and techniques have been implemented for using and monitoring use of system utilities.
SS-2.2 Inappropriate or unusual activity is investigated and appropriate actions taken.

Control Description                               Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
OS/390                                            OS/390                                      OS/390
Mainframe audit log policies are outlined in      Inspected the System Management             DECC-Columbus did not comply with the
the OS/390 STIG, Volume 1. The OS/390             Facility records selected for logging.      STIG for OS/390. Testing of the OS/390
STIG requires review of dataset access                                                        operating system configuration revealed:
violations, resource violations, and program      Inspected output for key Multiple Virtual
use violations on a daily basis and requires      Storage system libraries.                      •   Three datasets containing user ID and
review of the failed log-on attempts and                                                             passwords had a default access of
security privileges on a weekly/monthly basis.    Inspected output to determine which files          READ.
                                                  were used to collect the system audit          •   One APF-authorized library could be
The OS/390 STIG requires the DECC-                trail.                                             updated by any RACF-defined user.
Columbus to review the RACF global control                                                       •   Written standards did not specify
options at least quarterly to determine whether   Inquired if any user could modify the              contents of system libraries.
any changes were authorized and necessary.        audit files.                                       Specifically:
                                                                                                        o No indication of what user
                                                                                                            Supervisory Calls had been
                                                                                                            authorized.
                                                                                                        o No indication of what APF
                                                                                                            libraries had been authorized.
                                                                                                        o No indication of what
                                                                                                            modifications to the Program
                                                                                                            Properties Table had been
                                                                                                            authorized.
                                                                                                 •   Implementation of changes by
                                                                                                     DECC-Columbus with no formal and
                                                                                                     supporting documentation of

                                                                   37
Control Description                              Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
                                                                                                    approval of system software
                                                                                                    modifications/changes made by
                                                                                                    DECC-Mechanicsburg.

                                                                                             SMC-Ogden had not implemented effective
                                                                                             procedures for monitoring, controlling, and
                                                                                             backing-up audit logs recording access to
                                                                                             and use of system software and utilities.

HP-UNIX                                          HP-UNIX                                     HP-UNIX
The operating system is configured to prevent    Inspected the script results to determine   No relevant exceptions were noted.
circumvention of the security software and       compliance with the UNIX STIG.
application controls and configured in
accordance with the UNIX STIG.

Security Planning (SP)

In order to assess the application controls of DBMS, an understanding of the application’s business purpose and financial impact, as
well as its processing environment, should be obtained. DFAS should develop a tailored security plan that is in compliance with
DITSCAP. DBMS should undergo the certification and accreditation process in accordance with DITSCAP.

Control Activity:
SP-1 Periodically assess risks.

Control Description                              Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                             DISA                                        DISA
Periodic evaluations and annual reviews are      Inspected risk management policies,         The risk assessment for DECC-Columbus
conducted to determine risk.                     DISA Instruction 630-125-6                  was not performed every three years.

                                                                  38
Control Description                           Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
                                              “Management Control Program” and
A formal risk assessment is developed and     “Residual Risk in DoD” Accreditation
conducted once every 3 years. Formal risk     issued by FSO.
assessments are updated annually based on
annual reviews.                               Inspected the risk assessments for
                                              DECC-Columbus and SMC-Ogden.

Control Activity:
SP-1 System documentation for DBMS application exists and is current.

Control Description                           Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DFAS                                          DFAS                                        DFAS
DBMS technical documentation exists and is    Inspected the SSAA for DBMS to              No relevant exceptions were noted.
current.                                      determine appropriateness in relation to
                                              the current control environment.

                                              Inquired of management regarding the
                                              current operating environment and
                                              current versions of the operating system,
                                              database, and security software.

Control Activity:
SP-2 An application and general support security plan exists and covers the appropriate sections as defined by federal
regulations and agency requirements.

Control Description                           Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                          DISA                                        DISA
Security plan developed for each site.        Inspected the site security plans.          Site security plan did not contain Rules of
                                                                                          Behavior and OS/390 Security Features User

                                                              39
Control Description                                 Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
                                                                                                 Guide.

DFAS                                                DFAS                                         DFAS
DFAS has documented and finalized a DBMS            Inspected the security plan to ensure that   In the DBMS security plan, the appointed
security plan that contains security policies and   updates (if any) were in accordance with     personnel to Information Assurance roles
procedures (i.e. application security plan,         DoD and National Institute of Standards      were not specified in writing, nor were duties
security manuals) containing the following          and Technology guidance.                     and appointment criteria described.
elements of DoDI 8500.2 and National
Institute of Standards and Technology Special
Publication 800-18, “Guide for Developing
Security Plans for Information Technology
Systems”:

   a. Roles and responsibilities of
      application security officer(s), user
      managers, users, etc.
   b. Procedures for granting, modifying,
      and removing access.
   c. Standard job profiles.
   d. Periodic re-certification of user access.
   e. Monitoring and timely follow-up to
      access violations and other security-
      related reports.
   f. Access only by valid combination of
      log-on IDs and individual passwords
      (one unique ID per user).
   g. Minimum password length (i.e. 8
      characters).
   h. Password character composition (e.g. 1
                                                                     40
Control Description                             Tests of Operating Effectiveness      Results of Tests of Operating Effectiveness
      numeric, 1 special, 1 symbol, 1
      character required).
  i. Password change period (minimum and
      maximum number of days).
  j. Number of password generations.
  k. Use of encrypted passwords.
  l. User ID is locked out after a prescribed
      number of log on failures.
  m. Deletion of log-on IDs and passwords
      for separated or reassigned employees.
  n. Simultaneous use of the same user
      ID/password is prohibited.
  o. Menu selections displayed are
      restricted based upon the access
      privileges defined by the user ID.

Control Activity:
SP-2.2 The security plan is kept current.

Control Description                             Tests of Operating Effectiveness      Results of Tests of Operating Effectiveness
DISA                                            DISA                                  DISA
Security plan is reviewed annually.             Inspected the security plan and the   DECC-Columbus security plan did not
                                                SSAA.                                 assess changes made to security or the
Security plan is updated annually or as                                               interconnection of systems when changes are
necessary.                                                                            made.




                                                                41
Control Activity:
SP-3 Establish a security management structure and clearly assign security responsibilities.

Control Description                              Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
DFAS                                             DFAS                                         DFAS
The DBMS security plan contains the              Inspected the security plan to ensure that   In the DBMS security plan, the appointed
following:                                       updates (if any) were in accordance with     personnel to Information Assurance roles
                                                 DoD and National Institute of Standards      were not specified in writing, nor were duties
 a. Effective usage date.                        and Technology guidance.                     and appointment criteria described.
 b. Name of the person who is responsible
     for the application.
 c. Assignment of responsibilities, in writing
     to ensure that the application has
     adequate security.
 d. Description of the following application
     risk attributes, if applicable:
    • Connected to the Internet.
    • Located in a harsh or overseas
        environment.
    • Software is rapidly implemented.
    • Software resides on an open network
        used by the general public or with
        overseas access.
 e. Whether the application is processed at a
     facility outside of the organization's
     control.
 f. Dial-up access support for vendors.
 g. The security plan contains Rules of
     Behavior including topics such as, but
     not limited to:
                                                                  42
Control Description                             Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
   • Responsibilities of users and user
       management;
   • Other policies & procedures unique to
       the application and its users;
   • Application rules (i.e. business rules,
       planned downtime, etc.); and
   • Dial-in procedures.

Control Activity:
SP-3.1 A security management structure has been established.

Control Description                             Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
DISA                                            DISA                                         DISA
The DISA Computing Services Security            Inspected the site organization charts,      No relevant exceptions were noted.
Handbook defines the responsibilities of the    SSAA, and letters of appointment.
Directors, DISA Security Officer, DISA
Designated Approval Authority, DISA             Inquired about the site security structure
Certification Authority, Commander of DISA      from the Information System Security
Computing Services Security Manager, DISA       Manager.
Computing Services ISSO, Network Security
Officer, and TASO.

Control Activity:
SP- 3.2 Information security responsibilities are clearly assigned.

Control Description                             Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
DISA                                            DISA                                         DISA
The roles and responsibilities of the           Inspected the SSAA, security plan,           The SMC-Ogden security plan was not
Information Assurance Manager, Information      security features user guide, rules of       complete. Specifically, the plan did not

                                                                 43
Control Description                           Tests of Operating Effectiveness        Results of Tests of Operating Effectiveness
Assurance Officer, and Security Manager are   behavior, and DISA Computing Services   sufficiently address all requirements outlined
outlined in the appointment orders.           Security Handbook.                      in DoDI 8500.2. Specifically, the security
                                                                                      plan:

                                                                                      • Did not specify, in writing, the IA roles
                                                                                        of appointed personnel nor are their
                                                                                        duties and appointment criteria described.
                                                                                      • Was not compliant with encryption
                                                                                        requirement of Federal Information
                                                                                        Processing Standard 140-2, “Security
                                                                                        Requirements for Cryptographic
                                                                                        Modules”, which requires that
                                                                                        “unclassified, sensitive data transmitted
                                                                                        through a commercial or wireless
                                                                                        network be encrypted using NIST-
                                                                                        certified cryptography.” Though the plan
                                                                                        states that mitigation is described in
                                                                                        Appendix Q, no Appendix Q was
                                                                                        attached to the SSAA.
                                                                                      • Did not specify the password minimum
                                                                                        or maximum change period.
                                                                                      • Did not specify whether menu selections
                                                                                        were restricted based on access
                                                                                        privileges.




                                                            44
Control Activity:
SP-3.3 Owners and users are aware of security policies.

Control Description                             Tests of Operating Effectiveness         Results of Tests of Operating Effectiveness
DISA                                            DISA                                     DISA
DISA Instruction 630-230-19, “Automated         Inspected security awareness training    35 of 45 employees did not attend new hire
Data Processing – Information System Security   material for new employees and the       security awareness training and three of 45
Program” and the DISA Computing Services        annual training material for current     did not attend annual security awareness
Handbook provide guidelines on security         employees.                               training at SMC-Ogden.
training.
                                                Inspected flyers and other means of      Eight of 45 employees did not attend annual
                                                security awareness communicated to       security awareness training at DECC-
                                                employees.                               Columbus.

                                                Inspected security training completion
                                                sheets and attendance sheets.

Control Activity:
SP-3.4 An incident response capability has been implemented.

Control Description                             Tests of Operating Effectiveness         Results of Tests of Operating Effectiveness
DISA                                            DISA                                     DISA
The DISA Computing Services Security            Inquired to personnel about incident     Incident response process in SMC-Ogden
Handbook provides guidance on handling          response responsibilities.               was not specified in the SSAA.
incidents, incident reporting structure, and
prioritization of incidents.                    Inspected site SSAA, DISA Computing
                                                Services Security Handbook, Network
                                                Operations Center Columbus Standard
                                                Operating Procedure Incident Response.


                                                                45
Control Activity:
SP-4 The current processing environment has been authorized by management.

Control Description                                Tests of Operating Effectiveness        Results of Tests of Operating Effectiveness
DFAS                                               DFAS                                    DFAS
A C&A has been performed within the last 3         Inquired if a C&A had been performed in No relevant exceptions were noted.
years in accordance with DITSCAP. C&A              accordance with DITSCAP.
package contains the following elements:
                                              Inspected the C&A package as part of the
• The Designated Approving Authority and      DITSCAP process.
  the Security Manager have signed the
  statement.
• Management completed the C&A at the
  time the application moved into production.
• The C&A did not result in an interim
  authority to operate.

Control Activity:
SP-4.2 Employees have adequate training and expertise.

Control Description                                Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                               DISA                                        DISA
Training and Certification requirements for        Inspected job descriptions, personnel       Configuration management staff at SMC-
users and system administrators are established    records, and education records.             Ogden did not have adequate training.
by DoD and DISA policies.
                                                   Inspected training tracking sheets.         Two of nine individuals did not receive
The DISA Computing Services Security                                                           adequate training.
Handbook outlines several different                Inquired of security personnel about the
certification courses that system administrators   training and the DISA policy on training.
should take depending on the designated level.
                                                                   46
Control Activity:
SP–5.2 Management ensures that corrective actions are effectively implemented.

Control Description                                 Tests of Operating Effectiveness           Results of Tests of Operating Effectiveness
DISA                                                DISA                                       DISA
DECC-Columbus maintains a plan of action            Inquired management about the plan of      No relevant exceptions were noted.
and milestones that tracks all issues identified    action and milestones process.
through a Security Readiness Review including
specific weaknesses, resources needed to            Inspected the current plan of action and
implement corrective actions, progress in           milestones, Corrective Action Plan, and
addressing weaknesses, and scheduled                Vulnerabilities Management System.
completion basis. It is the responsibility of the
DECC-Columbus primary security official to
send a status to DISA Field Security Office to
update their progress on the plan of action and
milestones issues

Change Control (CC)

Effective change controls provide reasonable assurance that DFAS-Columbus has implemented processes to ensure that DBMS
software modification responsibilities are carried out in accordance with applicable guidelines. These change control procedures and
processes ensure that DBMS processing features and program modifications are properly authorized, new or revised DBMS software
is tested and approved, and software libraries are controlled.




                                                                    47
Control Activity:
CC-1.1 A System Development Life Cycle methodology (SDLC) has been implemented.

Control Description                                Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DFAS                                               DFAS                                        DFAS
A SDLC methodology has been developed and          Inquired of management on DFAS-             No relevant exceptions were noted.
approved. The SDLC:                                Columbus responsibilities for change
                                                   control.
•   Provides a structured approach consistent
    with generally accepted concepts and           Inspected change control procedures in
    practices, including active user               place to ensure responsibilities were
    involvement throughout the process.            carried out in accordance with the SDLC.
•   Is sufficiently documented to provide
    guidance to staff with varying levels of       Inspected any deviations from a standard
    skill and experience.                          set of change control procedures.
•   Provides a means of controlling changes in
    requirements that occur over the system’s      Inquired of staff involved in developing
    life.                                          and testing software regarding whether
•   Includes documentation requirements.           they had been trained and were familiar
•   Program staff and staff involved in            with the use of the SDLC methodology.
    developing and testing software have been
    trained and are familiar with the use of the   Inspected the DBMS configuration
    organization’s SDLC methodology.               management process and software
                                                   quality assurance controls.

                                                   Inspected training records to ensure that
                                                   site personnel had been trained on their
                                                   change control-related responsibilities.


                                                                   48
Control Activity:
CC-1.2 Authorizations for software modifications are documented and maintained.

Control Description                             Tests of Operating Effectiveness      Results of Tests of Operating Effectiveness
DISA                                            DISA                                  DISA
Informational “request” is entered into the     Inspected a sample of changes for     DECC-Columbus did not track software
Change Control Board Database to keep           appropriate request and development   changes through development, testing, and
track of all the changes.                       documentation, and approvals.         production.

Software changes are not made on-site at
DECC-Columbus but all modifications are
done at Change Design Activities (CDA).
As appropriate software becomes available,
customers request that DECC-Columbus
install the software.

For the mid-tier systems, the software is
downloaded into a separate directory used
only for downloads. After the software is
downloaded by CDA, one of the IT
Specialists installs the software from that
directory into a test directory or system so
that the customer can test the program before
it goes into production.

For the mainframes, the IT Specialists
download the software from the appropriate
software download site and install it onto a
test LPAR.

                                                                 49
Control Description                                     Tests of Operating Effectiveness          Results of Tests of Operating Effectiveness

DFAS                                                    DFAS                                      DFAS
Software change requests follow a prescribed            Obtained and inspected a list of recent   18 of 19 mid-tier change releases were missing
change control process including:                       software modifications (regular and       either the ATQ 1 signature or the Program
                                                        emergency changes). For a sample of       Management Office signature block.
      •   Documenting all software change               changes, inspected documentation to
          requests;                                     determine whether the following           Three of five major/minor release test plans
      •   Preparing specification of changes;           requirements were met:                    provided did not have results documented.
      •   Version control of changes;
      •   Conducting unit and process testing; • DFAS completed application change
      •   Completing test plans;                 request forms;
      •   Approval of changes by appropriate   • Appropriate management authorized
          manager; and                           these forms;
      •   Coordinating implementation with the • Each change request form had a unique
          System Owner.                          identification number;
                                               • Change specifications were clearly
                                                 documented;
                                               • A configuration management plan
                                                 existed;
                                               • Documented test plans and results
                                                 existed to support the change;
                                               • DFAS documented and analyzed test
                                                 failures to detect ineffective testing;
                                               • Changes were moved into production
                                                 following management’s approval; and
                                               • DFAS documented user acceptance.


1
    ATQ is an office code within DFAS-Columbus. This is not an acronym.
                                                                          50
Control Description                             Tests of Operating Effectiveness           Results of Tests of Operating Effectiveness
                                                Inquired as to the frequency of
                                                Configuration Control Board meetings for
                                                changes affecting the site.

Control Activity:
CC-2.1 Changes are controlled as programs progress through testing to final approval.

Control Description                            Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
DISA                                           DISA                                        DISA
Informational “request” is entered into the    Inspected the sample of changes for test    DECC-Columbus did not track software
Change Control Board Database to keep          plans.                                      changes through development, testing, and
track of all the changes.                                                                  production.

Software changes are not made on-site at
DECC-Columbus but all modifications are
done at CDA. As appropriate software
becomes available, customers request that
DECC-Columbus install the software.

For the mid-tier systems, the software is
downloaded into a separate directory used
only for downloads. After the software is
downloaded by CDA, one of the IT
Specialists installs the software from that
directory into a test directory or system so
that the customer can test the program
before it goes into production.

For the mainframes, the IT Specialists

                                                                  51
Control Description                            Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness
download the software from the appropriate
software download site and install it into a
test LPAR.

DFAS                                          DFAS                                           DFAS
Changes to DBMS are logged to provide         Inquired whether changes to applications       No relevant exceptions were noted.
“trace-back” ability.                         were logged to provide “trace-back” ability.
                                              Inspected supporting documentation for five
At each level of testing, there is management last major changes.
approval before proceeding to the next level
of testing. Evidence of management is         Inquired as to whether at each level of
maintained.                                   testing, there was management approval
                                              before proceeding to the next level of
An independent group, such as Quality         testing.
Assurance, moves changes between
development, testing, and production          Inquired as to what type of data was used
environments.                                 during the testing of changes made to
                                              DBMS. Also, observed who reviewed and
Security requirements are considered and      accepted test results.
approved. These security features are tested
for emergency changes.                        Inquired as to who was responsible for
                                              moving changes between development,
Supporting documentation for system           testing, and production environments.
administrator, operators, and end-users were
updated after changes/modifications to the    Inquired if supporting documentation for
selected sample systems.                      system administrator, operators, and end-
                                              users was updated after
                                              changes/modifications to the selected
                                              sample systems.
                                                                 52
Control Description                                   Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness

                                                      Inspected Release letters with functional
                                                      documentation.

Control Activity:
CC-2.2 Emergency changes are promptly tested and approved.

Control Description                                    Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness
Finalized policies and procedures are in place         Inspected policies and procedures in place    16 of 45 emergency change releases did not
for emergency changes. These documents                 for emergency changes to determine if         have documentation to support the changes.
require emergency changes to be recorded               emergency changes were recorded and
and approved by management; and normal                 approved by management; and normal            Two of 29 emergency change releases did
change request forms and documentation are             change request forms and documentation        not have the appropriate signatures on the
to be completed after the emergency change.            were completed after the emergency change.    Technical Management Certification Release
                                                                                                     Quality Certification Checklists.

                                                                                                     One of 29 emergency releases was missing
                                                                                                     the appropriate signature on Release Quality
                                                                                                     Certification Checklist Product Integration
                                                                                                     Certification.

                                                                                                     Six of 29 emergency change releases and 19
                                                                                                     of 19 mid-tier releases did not have a
                                                                                                     Technical Management Verification
                                                                                                     signature on the TCA/CO 2 Transmittal
                                                                                                     Forms.


2
    TCA/CO is an office code with DFAS-Columbus. This is not an acronym.

                                                                           53
Control Description                            Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
                                                                                              26 of 29 emergency change releases were
                                                                                              missing either the ATQ signature or the
                                                                                              Program Management Office signature block
                                                                                              on the Quality Certification Checklist.

Control Activity:
CC-3.1 Programs are labeled and inventoried.

Control Description                            Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness
Finalized policies and procedures exist for    Inspected policies and procedures for the     No relevant exceptions were noted.
the labeling and inventorying of DBMS          labeling and inventorying of software
programs.                                      programs.

DFAS-Columbus uses automated software          Inquired if DFAS-Columbus used automated
libraries to record the movement of software   software libraries that record the movement
applications. DFAS-Columbus maintains          of software applications.
the following:
                                               Inspected a listing of the programs
•   An audit trail of program changes;         maintained in each library.
•   Current program version numbers;
•   The location of prior versions; and
•   Location and status of physical media.

Control Activity:
CC-3.2 Access to program libraries is restricted.

Control Description                            Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness
DFAS-Columbus has established separate         Inquired if DFAS-Columbus had separate        No recertification policy or process was in

                                                                  54
Control Description                           Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
environments for development, testing, and    environments for development, testing, and     place to ensure that user access and privileges
production. DFAS-Columbus restricts the       production.                                    in DBMS were appropriate.
unauthorized access and/or modification of
source code via RACF/Endeavor.                Inquired how access was controlled between
                                              these environments (development, test, and
Programmers/developers do not have access     production) for non-end users.
to the production environment, and end
users do not have access to the development   Inspected a listing of non-end users with
and test environments.                        access to development and test, and
                                              production environments.
The development environment is certified
and accredited.                               Inquired if source code for the most recent
                                              version of DBMS was maintained in a
The source code for the most recent DBMS      separate library from production code.
version is maintained in a separate library
from production code.                         Inspected a listing/inventory of program
                                              tapes/media.
DFAS maintains backup tapes/media for
production library.                           Inspected the existence of a sample of ten
                                              program tapes/media either in the library or
                                              with the individual responsible for
                                              withdrawing the tapes/media.

Control Activity:
CC-3.3 Movement of programs and data among libraries is controlled.

Control Description                           Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Finalized policies and procedures exist for   Inspected policies and procedures for          No relevant exceptions were noted.
movement of program code between              movement of program code between

                                                                 55
Control Description                            Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
libraries.                                     libraries.

The movement of changes are approved and       Inquired if movement of changes were
documented by responsible management.          documented and approved.

                                               Inspected recent changes and screen prints
                                               of the changes.

Authorization (AN)

Only authorized transactions should be entered into DBMS and processed by the computer. Assessing authorization controls involves
evaluating the entity’s ability to effectively perform the following critical elements:
   • All data are authorized before entering DBMS.
   • Data entry terminals are restricted to authorized users for authorized purposes.
   • Master files and exception reporting help ensure all data processed are authorized.

Control Activity:
AN-1.1 Source documents are controlled and require authorizing signatures.

Control Description                           Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Input transactions received are entered       Inspected the applicable standard operating    No relevant exceptions were noted.
either by interfaces from another system or   procedures for entering transactions into
are input manually by Accounting              DBMS.
Technicians.
                                              Obtained and inspected a listing of function
All transactions are assigned unique          code prefixes.
function code prefixes to identify source.
                                              Obtained and inspected examples of source

                                                                  56
Control Description                          Tests of Operating Effectiveness          Results of Tests of Operating Effectiveness
Key source documents require authorizing     documents used to enter each class of
(at least one of the following) signatures   obligations, which includes:
(Supervisor, Contract Officer, Resource
Manager, Billing Official) for:                  a.   Commitments,
                                                 b.   Obligations,
   •    1081 – Accounting adjustment             c.   Work Counts,
        document;                                d.   Expenses,
    • Modification of Documentation –            e.   Disbursements,
        Used to modify an existing               f.   Payables,
        contract;                                g.   Receivables, and
    • Military Interdepartmental Purchase        h.   Journal vouchers.
        Requests – Used for procurement of
        commercial supplies and/or         Observed Accounting Operations staff
        services; and                      perform their job functions and process
    • Contracts – Binding documents        block tickets for different transactions.
        with outside vendors.
                                           Inquired where original source
Manual source documents are controlled     documentation was stored.
with a block number assigned by DDARS.
                                           Inspected prepared source documents and
Block numbers are used to maintain         batches.
sequence control and accountability over
the documents.                             Inspected procedures for recording and
                                           tracking pre-numbered documents.
Vouchers within the block are totaled on
the block by appropriation code.

Accounting Operations is responsible for
verifying all manual input documents

                                                                 57
Control Description                            Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
through control totals and identification of
user ID of technician who was responsible
for the input.

Control Activity:
AN-1.2: Supervisory or independent reviews of data occur before data enter the application.

Control Description                             Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
Data control unit personnel verify that         Inspected standard operating procedures for     No relevant exceptions were noted.
source documents are properly prepared and      entering data into DBMS. Inquired on
authorized.                                     security controls in place to prevent
                                                unauthorized users from entering fraudulent
Data control unit personnel monitor data        transactions.
entry and processing of source documents.
                                                Inquired if supervisory review of
                                                transactions takes place through signed
                                                document, email, or other means.

                                                Observed the Block Ticket process.

                                                Inspected Block Ticket transactions.

Control Activity:
AN-2.1 Data entry terminals are secured and restricted to authorized users.

Control Description                         Tests of Operating Effectiveness                    Results of Tests of Operating Effectiveness
DD Form 2875 must be completed by           Inquired to the ISSO about the procedures in        Inadequate security settings were in place to
individual requesting access with required  place to obtain a DBMS user ID.                     ensure that DFAS-Columbus computer users
supervisor signature. An additional program                                                     were automatically logged out of their
                                                                   58
Control Description                            Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
worksheet annotating which accesses is         Inquired about additional logical access       terminals after a specified period of inactivity.
required and must be submitted with the DD     controls in place to restrict access to user   In addition, computer terminals were left
Form 2875, which requires supervisor           terminals.                                     unattended with CACs inserted and screen lock
signature. The DD Form 2875 is sent to the                                                    not activated.
security manager to validate the background    Inquired and observed how workstations
investigation or clearance information.        were secured to prevent unauthorized           DBMS password settings, controlled by
                                               access.                                        ENTIRE, were not compliant with DoDI
For external users only, a supervisor                                                         8500.2. None of the password settings, for
signature and security clearance from their    Inquired and observed how DBMS users           either the TSO or the DBMS application, could
location is required, prior to submission to   access the application. Inquired if a          be verified by viewing the actual CINCOM
DFAS-Columbus.                                 supervisor was required to approve the         ENTIRE program logic. The following
                                               logon for each session.                        ENTIRE settings were not in compliance with
Additional program worksheet annotating                                                       DoDI 8500.2:
which access levels are required must be       Inquired if each user was required to use a
submitted with the DD Form 2875. The           different user ID.                             •   Passwords with at least one alphabet,
worksheet requires supervisor signature.                                                          numeric, and special character. Passwords
For certain access levels, some menus          Observed and inspected the password                are not case sensitive.
requests require the Division Chief’s          settings used for DBMS. Inspected the          •   New password with three changed
signature.                                     DBMS environment password                          characters.
                                               configurations to determine if they were set   •   Password encryption (DFAS-Columbus can
DECC-Columbus would assign the program         to the following parameters:                       not prove that passwords are properly
access. The TASOs would assign the                                                                encrypted).
Activity access and notify the user of their   •   Be at least eight characters;
user ID and temporary password.                •   Include at least one upper case, one       Six users who were listed as separated still had
                                                   lower case, number, and one special        active DBMS user accounts.
Data entry is accomplished through a               character;
password protected (CAC) terminals which       •   Require that at least four characters be   DFAS-Columbus procedures and processes
are located on the users’ desks.                   changed when creating a new password;      over DBMS user account management did not
                                               •   Force default/factory setting passwords    comply with the DFAS-Columbus Handbook

                                                                   59
Control Description                             Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
When a terminal is not in use, the terminal        to be removed/changed upon initial use;     for Systems Access Management and Control
CAC is removed and the terminal is locked.      • Contain system mechanisms to force           and DoDI 8500.2. The following control
The system requires a CAC, as well as user         automatic expiration of passwords and       weaknesses were identified:
ID and password, for re-entry into the             prevent password reuse; and
network. A separate/unique user ID and          • Require password files to be encrypted.      •   171 of 209 users did not have DD Form
password is required to log-on to DBMS.                                                            2875 on file at DFAS-Columbus. Only 13
                                                Inquired if users could access the                 of the 38 who did have files maintained had
DBMS is programmed to allow data entry          application directly or if they needed to          their access request form, DD Form 2875s,
connections (i.e., “sign-on”) during            logon to the local area network or                 correctly filled out, and only 20 had access
specified periods of the day that correspond    mainframe first.                                   request worksheets, specifying the function
with the online hours of the system.                                                               codes. The remaining 25 access request
                                                Inspected the DBMS user list, current              forms and 17 access request worksheets
Data entry connections automatically            employee list and terminated employee list.        were either incomplete, missing DBMS
disconnects from the system after 15                                                               TASO signatures, or did not have
minutes of inactivity.                          Inspected 209 access request forms.                appropriate justification.

Internal users are required to sign             Inquired on re-certification of user and       •   No recertification policy or process was in
acknowledgement forms stating their             programmer access.                                 place to ensure that user access and
responsibility for their account ID and                                                            privileges in DBMS were appropriate.
temporary password.                             Inquired if users were locked from accessing       DFAS-Columbus management had no way
                                                the application during specific periods.           of knowing when external users no longer
Sign-on requires users to establish             Inspected the output of attempting to logon        needed access unless their supervisors
passwords known only to them.                   to a workstation outside of the permitted          informed the DBMS TASOs. Furthermore,
                                                window.                                            DFAS-Columbus management did not
All transactions are logged as entered, along                                                      periodically review application
with the ID of the person entering the data.    Inquired if users were disconnected after a        programmer privileges access and
                                                specific period of inactivity.                     privileges.

                                                Inquired if successive logon attempts were     DFAS-Columbus did not have procedures and
                                                                   60
Control Description                             Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
                                                controlled and monitored.                      processes in place to review the access logs for
                                                                                               DBMS for either unauthorized accounts or
                                                Inquired if users could access the             inappropriate user activity. No previous log
                                                application via dial-up. Inquired what types   reviews existed to verify that access logs were
                                                of users had dial-up access and if the         properly created and periodically monitored.
                                                transmission was encrypted.

                                                Inquired what controls were established for
                                                dial-up.

                                                Inquired if access logs were maintained by
                                                DBMS.

                                                Inquired on and inspected procedures for
                                                review of the access logs.

                                                Inspected example of DBMS access logs.

Control Activity:
AN-2.2: Users are limited in what transactions they can enter.

Control Description                             Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Security is exercised by the system at levels   Inquired if DBMS had authorization profiles    DFAS-Columbus procedures and processes
in the processing cycle through the system      for the application and SUPRA. Inquired to     over DBMS user account management did not
sign-on, menu selections/authorization, and     DBMS management if the access matrix in        comply with the DFAS-Columbus Center
activity identity.                              the SSAA was followed.                         Handbook for Systems Access Management
                                                                                               and Control and DoDI 8500.2. Specifically:
User access is restricted by the user-          Inspected the adequacy of the general
assigned functions and password. This           controls over authorization profiles.          •   Position descriptions could only be

                                                                   61
Control Description                            Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
security is authenticated through SUPRA.                                                          provided for 15 of 38 users. Of these 15,
SUPRA applies security to activities that      Inspected the listing of the DBMS profiles         one did not justify needing access to
have the accounting function completed at      and their description.                             DBMS.
DFAS.
                                               Inquired and inspected the types of activities •    There was no process in place to verify that
The user must be authorized to sign on to      authorization profiles were used to control.        supervisors properly assigned function
DBMS. Subsequent access will be                                                                    codes to promote segregation of duties.
determined by management and                   Inspected 209 access request forms.
implemented by the Automated Data                                                              •   Nine of 37 users had access request
Processing Field Security Representative.      Inquired and inspected that authorization           worksheets that correctly matched the
                                               profiles limited the dollar amount of a             user’s actual access in DBMS.
Authorization will link the user to either     transaction a user could enter, edit, or
Appropriation Accounting Programs or a         approve.
subsequent menu which authorizes access to
only a limited number of function codes        Inspected documentation to determine
within DBMS. Access is based on assigned       whether access to menus/screens
tasks, not job descriptions.                   corresponds to the users’ defined duties.

Sign-on requires the user to establish a       Inspected 209 access forms and compared
password known only to the user which will     them to the UTYS02 (user list) report to
further restrict access.                       determine that users had access to what was
                                               approved.

Control Activity:
AN-3.1: Master files help identify unauthorized transaction.

Control Description                           Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Before transactions are processed, they are   Inspected documentation on validity and        No relevant exceptions were noted.
verified using master files of approved       accuracy checks performed on data fields.
                                                                  62
Control Description                           Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
lines of accounting as appropriate for the    Inquired from the DBMS programmers
application. Master files consist of:         how data was verified and what type of
                                              information was verified before the
       •   LACT (a program file),             transaction was processed.
       •   Master Accounting Data, and
       •   Matrix.                            Inquired how master files that contained
                                              vendor, customer, or other sensitive
Master file LACT that does the verification   information were secured.
is protected from unauthorized
modifications.                                Inquired who had access to master files.
                                              Inquired how access was granted and
                                              whether it was noted on access request
                                              form.

                                              Inspected and observed a sample of
                                              function codes for the tables, confirming
                                              that transactions verify information in the
                                              tables or files properly.

Control Activity:
AN-3.2: Exceptions are reported to management for their review and approval.

Control Description                            Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
General ledger account code adjustments,       Inquired if DBMS produced a violation file       No relevant exceptions were noted.
based on parameters established by the         of rejected information (hard or soft
standard operating procedure Journal           formats).
Vouchers Adjustments to the General
Ledger, are tracked on a monthly report for    Inspected violation reports for the past six
management review and approval.                months for receivables-reimbursable and

                                                                   63
Control Description                           Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
                                              non-reimbursable, SRD-1, and BOSS
                                              violation control listing, and BOSS invalid
                                              transaction journal.

                                              Inquired if there were criteria for
                                              exception/rejection reporting.

                                              Inspected documentation establishing
                                              reporting parameters for exception/rejection
                                              reporting.

Completeness (CP)

All authorized transactions should be entered into and completely processed by the computer. Assessing the controls over
completeness involves evaluating the DEFAS-Columbus’ ability to effectively:
    • Ensure all authorize transactions are entered into and processed by the computer.
    • Ensure reconciliations are performed to verify data completeness.

Control Activity:
CP-1.1 Record counts and control totals.

Control Description                          Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
DDARS generated block tickets provide        Inspected documented procedures for using       No relevant exceptions were noted.
established counts and control totals over   record counts and control totals when
source documents, utilizing the Disbursing   entering transactions.
Daily Cash Blotter to help determine the
completeness of the data entry and data      Inquired how record counts were generated.
processing.                                  Obtained and inspected output of the counts
                                             developed.
                                                                  64
Control Description                             Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Online or real-time system and control totals
per appropriation are reflected on each         Inquired how the accumulation of record
control block (daily) and are used to help      counts were used, and how they were
determine the completeness of data entry        recorded (each session, daily or other
and processing.                                 frequently).

Control Activity:
CP-1.2 Computer sequence checking.

Control Description                             Tests of Operating Effectiveness           Results of Tests of Operating Effectiveness
Sequence checking is used to identify           Inquired if serial numbers from source     No relevant exceptions were noted.
missing or duplicate transactions through       documents were used for sequence checking.
auto-marking in DDARS.
                                                Inquired if a sequence checking review was
Reports of missing or duplicate transactions    performed to check for duplicate or missing
are produced from DDARS. Exceptions are         transactions.
investigated and resolved by month-end.
                                                Obtained and inspected examples of the
                                                sequence checking reports. Inquired what
                                                actions were taken for duplicate or missing
                                                documents.

Control Activity:
CP-1.3 Computer matching of transaction data.

Control Description                             Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Computer matching of transaction data with      Inquired if unique identifiers were assigned   No relevant exceptions were noted.
data in master or suspense files occurs to      to each transaction.
identify missing or duplicate files.            Inquired if DBMS performed automated

                                                                   65
Control Description                           Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
                                              checks of transactions to identify missing or
DDARS reports of missing or duplicate files   duplicate transactions.
are produced and items are investigated and
resolved by month-end.                        Inspected policies and procedures to
                                              determine how missing or duplicate
                                              transactions were reported and investigated.

                                              Inspected how missing or duplicate
                                              transactions were investigated and resolved.

Control Activity:
CP-1.4 Checking reports for transaction data.

Control Description                           Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
Individual transactions or source documents   Inquired if users (internal and external) of    No relevant exceptions were noted.
are compared through DDARS auto-              DBMS compared source documentation to
marking, with a detail listing of items       reports produced by DBMS to verify
processed by the computer, particularly to    information is accurate.
control important low-volume, high-value
transactions.                                 Inquired if transactions considered low
                                              volume, but high dollar value were reviewed
                                              separately with source documentation.

                                              Inspected the procedures regarding source
                                              documentation.

                                              Observed Accounting Technicians
                                              performing their job functions for the
                                              purpose of inspecting source documentation.
                                                                  66
Control Activity:
CP-2.1 Reconciliations show the completeness of data processed at points in the processing cycle.

Control Description                              Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
Record counts and control totals are             Inquired how management ensured that all     Although DFAS represented that a header and
established by block totals and reconciled       transactions were complete once they were    trailer were required for all files sent from
with transaction data manually and through       entered into DBMS.                           interfacing systems, DBMS accepted files in
DDARS auto-marking.                                                                           its entirety without the trailer and allowed the
                                                 Inspected related policies and procedures.   information to post to the system.
Trailer labels or control records containing
record counts and/or control totals are                                                       In addition, inbound interface between DBMS
generated for batch interface files and tested                                                and SRD-1 is not operating correctly when
by DBMS (part of the program logic) to                                                        information is sent to DBMS. Specifically:
determine that all records have been
received.                                                                                     •   DBMS will accept data files from SRD-1
                                                                                                  when trailer records are not included in the
Reconciliations are performed to determine                                                        transmission.
the completeness of transactions processed                                                    •   DBMS does not notify DFAS-Columbus
and whether master files updated and                                                              management that trailer records were not
outputs generated:                                                                                received.

    •   Daily,
    •   As-Required,
    •   Monthly,
    •   Using DDARS, and
    •   Using Automated Trial Balance
        Reconciliation.



                                                                    67
Control Activity:
CP-2.2 Reconciliations show the completeness of data processed for the total cycle.

Control Description                              Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
Trailer labels or control records containing     Inquired how management reconciled              The interfaces to and from DBMS were not
record counts and/or control totals are          transaction information.                        encrypted. Sensitive financial data was
generated for batch interface files and tested                                                   transmitted over the interfaces in clear text via
by DBMS (part of the program logic) to           Inspected the reports to re-perform a sample    unsecured FTP.
determine that all records have been             of 45 reconciliations over the past six
received.                                        months to determine procedures were             Although headers and trailers were required for
                                                 followed.                                       all files being sent from interfacing systems,
Reconciliations are performed to determine                                                       DBMS accepted the files in its entirety without
the completeness of transactions processed,      Inquired on interface controls for major        the trailer and allowed the information to post.
master files updated, and outputs generated:     interfacing system.
                                                                                                 The inbound interface between DBMS and
    •   Daily,                                   Inquired how DBMS reconciled the in-            SRD-1 was not operating correctly when
    •   As-Required,                             bound and out-bound interfaces.                 information was sent to DBMS. Specifically,
    •   Monthly,                                                                                 DBMS accepted data files from SRD-1 when
    •   Using DDARS, and                         Obtained and inspected a sample of              trailer records were not included in the
    •   Using Automated Trial Balance            reconciliation reports.                         transmission.
        Reconciliation.
                                                 Inquired if the customers of DFAS were          DBMS did not generate a violation report
                                                 responsible for completeness of the interface   when trailer records were not received.
                                                 transactions.




                                                                    68
Accuracy (AY)

The recording of valid and accurate data into an application system is essential to provide for an effective system that produces
reliable results. Assessing the controls for valid and accurate data involves evaluating DFAS-Columbus’ ability to effectively ensure:
        • Data entry design features contribute to data accuracy.
        • Data validation and editing are performed to identify erroneous data.
        • Erroneous data are captured, reported, investigated, and corrected.
        • Review of output reports helps maintain data accuracy and validity.

Control Activity:
AY-1.1 Source documents are designed to minimize errors.

Control Description                         Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness
The source document is well-designed to aid Inquired that source documents had been           No relevant exceptions were noted.
the preparer and facilitate data entry.     effectively designed to aid in the data entry
                                            of transaction information.

                                               Obtained and inspected blank source
                                               documents to confirm that they aided the
                                               preparer to record data correctly and in a
                                               uniform format.

                                               Inspected the master list of function codes.

                                               Inquired if the function codes used for data
                                               entry into DBMS were entered on source
                                               documentation.

                                               Inspected sample source documentation.


                                                                  69
Control Activity:
AY-1.2 Pre-formatted computer terminal screens guide data entry.

Control Description                              Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
Pre-formatted computer terminal screens are      Inquired and observed that screens were pre- No relevant exceptions were noted.
utilized and allow prompting of data to be       formatted for data entry.
entered, and editing of data as it is entered.
                                                 Inquired and observed that screens prompted
                                                 the user to enter data by field.

Control Activity:
AY-1.3 Key verification increases the accuracy of significant data fields.

Control Description                              Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Mandatory fields for edits and validation to     Inquired and observed that DBMS did not        No relevant exceptions were noted.
ensure key data is entered. Online editing is    require data fields to be re-enter to verify
performed to prevent erroneous data from         data accuracy before it was accepted.
being keyed.
                                                 Observed Accounting Technicians entering
Invalid changes to key data elements are not     data to ensure all data fields were entered
permitted.                                       before the transaction was processed.




                                                                     70
Control Activity:
AY-2.1 Programmed validation and edit checks identify erroneous data.

Control Description                           Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
All transactions are subject to validations   Inquired from DBMS programmers how              The means for which DBMS ensured that
and edits, which include checks for:          DBMS ensured that “correct data type” was       correct data type (i.e. alpha or numeric) was
                                              entered into the field (i.e. alpha, numeric).   entered into a data field could not be verified.
       •   Accuracy – Negative
           Unliquidated Obligation Edits,     Inquired what controls were in place to
       •   Dependency,                        ensure completeness and accuracy of input
       •   Existence,                         (reconciliation of control totals, 1-for-1
       •   Mathematical accuracy,             checking, matching, sequence checking,
       •   Check digit – Numeric not alpha,   duplicate processing, and programmed edit
       •   Document reconciliation, and       checks).
       •   Relationship or prior data
           matching.                          Inquired if and how the following automated
                                              edit checks were performed on the input
Validation and editing are performed at the   data:
computer terminal during data entry or are
performed as early as possible in the data    •   Reasonableness,
flow and before updating master files.        •   Limit Check,
                                              •   Range,
All applicable data fields are checked for    •   Existence,
errors before rejecting a transaction.        •   Format,
                                              •   Check Digit,
                                              •   Duplicate Check, and
                                              •   Completeness Check.

                                              Inquired whether the following edit checks
                                              existed:

                                                                 71
Control Description                               Tests of Operating Effectiveness                  Results of Tests of Operating Effectiveness

                                                  •   Format checks on numeric data;
                                                  •   Range checks on variable numeric field;
                                                  •   Date tests on date fields;
                                                  •   Existence checks on all key fields;
                                                  •   Check digit on all identification keys;
                                                  •   Tests for missing data;
                                                  •   Tests for extraneous data;
                                                  •   Tests for record mismatches; and
                                                  •   Tests for out of sequence conditions.

                                                  Inspected each edit check being performed
                                                  in the system.

                                                  Inquired how data received from interfacing
                                                  applications were validated for
                                                  completeness and accuracy.

                                                  Inspected interface transactions files for edit
                                                  checks.

Control Activity:
AY-2.2 Tests are made of critical calculations.

Control Description                               Tests of Operating Effectiveness               Results of Tests of Operating Effectiveness
Program code and criteria for tests of critical   Inquired on DFAS-Columbus’                     No relevant exceptions were noted.
calculations are protected from unauthorized      responsibilities for change control, including
modifications. All calculations are tested in     the following:
the Change Control Environment.
                                                                      72
Control Description                        Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                            • Application modifications (enterprise
Manual controls depend on Accounting           and business applications);
Operations verifying the daily & monthly    • Testing and approving software
data.                                          changes;
                                            • Quality assurance or quality control;
                                            • Controlling software libraries; and
                                            • Migrating changes to production.

                                           Inspected DBMS configuration management
                                           procedures.

                                           Inquired whether each level of testing had
                                           management approval before proceeding to
                                           the next level of testing.

                                           Inquired how management ensured that all
                                           transactions were complete once they were
                                           entered into DBMS. Obtained and inspected
                                           related policies and procedures. Obtained
                                           and inspected any output or reports.

                                           Inquired how management reconciled
                                           transactions information. Obtained and
                                           inspected applicable output or reports.

                                           Inspected the reports to re-perform a sample
                                           of reconciliations over the past six months to
                                           determine procedures were followed.


                                                              73
Control Description                         Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
                                            Inquired on the fields required for any
                                            transaction to be processed to the next level.

                                            Inquired whether DBMS had built-in logic
                                            to allow for “auto-complete”.

                                            Inquired on the change control process for
                                            updating an “auto-complete” list/menu.

Control Activity:
AY-2.3 Overriding or bypassing data validation and editing is restricted.

Control Description                         Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
Overriding and bypassing data validation    Inquired if users were able to override          No relevant exceptions were noted.
and editing are restricted.                 information when entering transactions and
                                            who had this capability.

                                            Inquired if DBMS produced a report listing
                                            for:

                                            •   Transactions and data elements that were
                                                overridden; and
                                            •   User IDs with the ability to override
                                                transactions and data elements.




                                                               74
Control Activity:
AY-3.1 Rejected transactions are controlled with an automated error suspense file.

Control Description                           Tests of Operating Effectiveness                 Results of Tests of Operating Effectiveness
Interface-rejected data are automatically     Inquired if audit trails tracking transactions   DFAS-Columbus and SMC-Ogden did not
written on an automated violation file and    and user activity were maintained.               conduct periodic reviews of the DBMS audit
held from processing until corrected.         Inspected the most recent audit trail.           trail for unusual activity.

Each erroneous transaction is annotated       Inspected policies and procedures for            DFAS-Columbus did not have policies and
with:                                         performing periodic review of the audit trail    procedures in place for the review,
                                              for unusual activity. Inspected the most         investigation, and correction of rejected
•   Error messages indicating the type of     recent audit trail review.                       transactions located within the violation file.
    data error;                                                                                As a compensating control, there were
•   Date and time the transaction was         Inquired whether the contents of audit trails    overviews and an appendix covering error
    processed and the error identified; and   were protected against unauthorized access,      codes and clearing violations in AAS and ABS
•   The identity of the user who originated   modification, and deletion.                      that is distributed to all associates who enroll
    the transaction.                                                                           and complete training classes.
                                              Inquired how long audit logs were retained.
The suspense file is purged of transactions                                                    The identity of the user or original rejected
as they are corrected.                        Inquired if transactions that were rejected      transaction was not identified in the violation
                                              were sent to a suspense file and held until      file. As a compensating control, the identity of
                                              they were investigated and corrected.            the user or originated transaction was located
                                              Inspected the most recent suspense file.         on the block ticket.

                                              Inquired who reviewed the suspense file and      Unable to verify that all sample rejected
                                              investigated and cleared the items. Obtained     transactions were corrected since all
                                              and inspected policies and procedures for        documentation requested from the violation
                                              reviewing, investigating and correcting          file sample was not provided.
                                              items in the suspense file.


                                                                  75
Control Description                               Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
                                                  Inspected items in the suspense file from the
                                                  six months and reviewed how they were
                                                  resolved.

Control Activity:
AY-3.2 Erroneous data are reported back to the user department for investigation and correction.

Control Description                               Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
Accounting Operations is responsible for          Inquired how rejected transactions were         No relevant exceptions were noted.
monitoring and correcting rejected                reported.
transactions. A report is generated on a
daily basis that identifies all open violations   Inquired who corrected the rejected
for management review.                            transactions.

Errors are corrected by the Accounting            Inquired whether supervisors reviewed
Technician assigned to support that               corrected transactions.
customer.
                                                  Inspected supporting documentation for a
Function Codes control access to the              sample of rejected and corrected
suspense file.                                    transactions over the last six months.




                                                                     76
Control Activity:
AY-4.1 Control output production and distribution

Control Description                            Tests of Operating Effectiveness            Results of Tests of Operating Effectiveness
The DBMS System Division is                    Inquired which division/department was      No relevant exceptions were noted.
responsibility for ensuring that all outputs   responsible for ensuring that all outputs
are produced and distributed according to      (reports) were produced and distributed
customer requirements.                         according to the requirements of DBMS and
                                               user management.
The data processing control group, or some
alternative:                                Inquired whether the data processing control
                                            group maintained a schedule, by application,
• Has a schedule by application that shows that showed:
    when outputs should be completed and
    passed to OLRV.                          • Output products produced;
• Reconciles control information to          • When they should have been
    determine completeness of processing.       completed;
                                             • Who the recipients were;
The Mechanization of Reports Distribution    • The copies needed; and
System automatically checks the output       • When they were to be distributed.
message before displaying, writing, or
printing to make sure the output has not    Inquired if a schedule had been established
reached the wrong terminal device.          for month-end, quarter-end, and year-end
                                            report processing. Inspected a copy of this
Output from reruns is subjected to the same schedule.
quality review as the original output.




                                                                77
Control Activity:
AY-4.2 Reports showing the results of processing are reviewed by users.

Control Description                           Tests of Operating Effectiveness              Results of Tests of Operating Effectiveness
Output reports for data accuracy, validity,   Obtained and inspected examples of the        Error, transaction, and master record change
and completeness are reviewed by multiple     reports produced by DBMS. Compared the        reports from the OLRV did not include an
end users (Management, Accountants,           reports to information in DBMS for            end-of-report page.
Technicians, etc.) based on the nature of     completeness.
data being reviewed, including:
                                              Inquired that each report had a title page
•   Error reports,                            with the name, time and date of production,
•   Transaction reports,                      and had an end-of-report page. Observed
•   Master record change reports, and         and inspected these reports.
•   Control totals balance reports.
                                              Inquire if a log was maintained for all
Printed reports contain a title page with     reports produced.
report, name, time and date of production,
the processing period cover; and have an      Inspected the log for printed reports.
“end-of-report” message.
                                              Inquired that the contents of reports were
                                              protected against unauthorized access,
                                              modification, and deletion.

                                              Inquired if any reports were sent to
                                              supervisors to approve prior to issuance.

                                              Inspected a sample of reports that were
                                              approved.

                                              Inquired if a log of output errors was
                                                                 78
Control Description                              Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
                                                 maintained. Inspected the log of output
                                                 errors.

                                                 Inquired if users reviewed reports for data
                                                 accuracy, validity, and completeness.

Integrity (IN)

Controls provide reasonable assurance that production processing uses the current version of software and data, that programs include
routines for checking internal file header labels before processing, and that concurrent updates of files are not allowed.

Control Activity:
IN-1 Integrity controls over processing and data files ensure the current version of production is used during processing.

Control Description                              Tests of Operating Effectiveness                Results of Tests of Operating Effectiveness
Procedures ensure that the current versions      Inspected policies and procedures that          No relevant exceptions were noted.
of production programs and data files are        ensure that the current version of production
used during processing by completing             programs and data files was used during
Release Check Lists.                             processing.

Programs include routines for checking           Inquired that DBMS included routines to
internal file header labels before processing.   verify that the proper version of the
                                                 computer file was used during processing.
The application protects against concurrent
file updates.                                    Inquired that DBMS included routines for
                                                 checking internal file header labels before
                                                 processing.

                                                 Inquired that DBMS protected against

                                                                    79
Control Description   Tests of Operating Effectiveness             Results of Tests of Operating Effectiveness
                      current file updates.

                      Inquired that DBMS used transaction roll-
                      back and transaction journaling.

                      Inquired that DBMS management
                      maintained a current baseline inventory of
                      all software required to support system
                      operations.




                                        80
Section IV: Supplemental Information Provided by the Defense
 Finance and Accounting Service and the Defense Information
                      Systems Agency




                             81
IV. Supplemental Information Provided by the Defense
    Finance and Accounting Service and the Defense
    Information Systems Agency
Continuity of Operations Planning
Based on the SLA between DECC-Columbus and DFAS-Columbus Accounting Services,
DECC-Columbus agreed to provide COOP services to DFAS-Columbus. Specifically,
DECC-Columbus agreed to:

    • Support and maintain back-up tapes.
    • Ensure off-site storage back-ups are performed weekly. These procedures are in
      place to validate the integrity of back-up tapes prior to being sent off-site.
    • Perform off-site storage back-ups as required by DFAS-Columbus, which has
      classified DBMS as ‘critical’ and is to be recovered immediately at an alternate
      processing site.

The COOP Assessment in the SSAA for DBMS that was dated January 1, 2003,
contained the following table summarizing DBMS’ contingency readiness:

CONTINGENCY PLAN EVALUATION                                                    YES NO N/A
Is there a contingency plan in existence for this system?                      X
Does the contingence plan, at a minimum, address the following:
The actions required minimizing the impact of a fire, flood, civil disorder,
                                                                               X
natural disaster, or bomb threat
Backup procedures to conduct essential IS operational tasks after a
                                                                               X
disruption to the primary IS facility
Recovery procedures to permit rapid restoration of the IS facility
                                                                               X
following physical destruction, major damage or loss of data
Does this contingency plan provide for the following:
Storage of system back-up data in off site storage or in the central
                                                                               X
computer facility in metal or other fire retardant cabinets
Duplicate system tapes, startup tapes/decks, database save tapes, and
application program tapes unique to the site to be maintained in a secure      X
location removed from the central computer facility
Identification of an alternate site containing compatible equipment            X
Destruction or safeguarding of classified material in the central computer
                                                                               X
facility in the event that the facility must be evacuated
The contingency plan has been tested during the past year                      X
The ISSO maintains a copy of the contingency plan                              X
The contingency plan contains criteria to state when it should be
                                                                               X
implemented and who can make that decision


                                                 83
Acronyms and Abbreviations
 AAS            Appropriation Accounting Subsystem
 ABS            Automated Billing System
 APF            Authorized Program Facility
 BOSS           Base Operations Support System
 C&A            Certification and Accreditation
 CAC            Common Access Card
 CDA            Change Design Activities
 CICS           Customer Information Control System
 DBA            Database Administrator
 DBMS           Defense Business Management System
 DCPS           Defense Civilian Pay System
 DDARS          Distributed Data Archive and Retrieval System
 DD Form 2875   System Authorization Access Request
 DECC           Defense Enterprise Computing Center
 DFAS           Defense Finance and Accounting Service
 DISA           Defense Information Systems Agency
 DITSCAP        Defense Information Technology Security Certification and
                Accreditation Process
 DoD            Department of Defense
 DoDI           Department of Defense Instruction
 FTP            File Transfer Protocol
 ID             Identification
 IT             Information Technology
 ISSO           Information System Security Officer
 LACT           Liaison Activity Code Table
 LPAR           Logical Partition
 MAC            Mission Assurance Category
 OIG            Office of the Inspector General
 OLRV           Online Report Viewer
 RACF           Remote Access Control Facility
 RAS            Resource Administration Subsystem
 SDLC           System Development Life Cycle
 SLA            Service Level Agreement
 SMC            Security Management Center
 SRD-1          Standard Financial System Redesign Subsystem
 SSAA           System Security Authorization Agreement
 STIG           Security Technical Implementation Guide
 TASO           Terminal Area Security Officer
 TSO            Time Sharing Option
 z/OS 1.4       z/OS, Release 4, Version 1.4




                                    85
Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service – Accounting Services
Director, Security Management Center - Ogden

Non-Defense Federal Organizations
Government Accountability Office
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and Ranking Minority
Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
   on Government Reform




                                          87
 House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
 and the Census, Committee on Government Reform




                                          88
Team Members
The Defense Financial Auditing Service, Department of Defense Office of the
Inspector General produced this report.

Paul J. Granetto
Patricia A. Marsh
Addie M. Beima
Michael Perkins
Kenneth H. Stavenjord
Donna A. Roberts
LTC Shurman Vines
Cindy Gladden
Ahn Tran
Towanda L. Stewart
Anissa M. Nash
Patricia A. Joyner
J. Shawn Sparks
Brian A. Royer
